Audit of the FedTraveler Travel
Service




                                  September 22, 2010
                                       Report No. 483
                                 MEMORANDUM
                                      September 22, 2010

To:              Kenneth Johnson, Associate Executive Director,
                  Office of Financial Management (OFM)
                 Sharon Sheehan, Associate Executive Director, Office of
                  Administrative Services (OAS)

From:            H. David Kotz, Inspector General, Office of Inspector General
                 (Signed HDKotz)

Subject:         Audit of the FedTraveler Travel Service, Report No. 483

This memorandum transmits the U.S. Securities and Exchange Commission,
Office of Inspector General’s (OIG) final report detailing the results of our audit
on the FedTraveler Travel Service. This audit was conducted as part of our
continuous effort to assess the management of the Commission’s programs and
operations and as a part of our annual audit plan.

The final report contains 20 recommendations, which if implemented should
improve the Commission’s programs and operations. Your written response to
the draft report is included in its entirety in Appendix V. The OFM concurred with
the 18 recommendations addressed to its office and OAS concurred with the 2
recommendations addressed to its office.

Within the next 45 days, please provide the OIG with a written corrective action
plan that is designed to address the agreed-upon recommendations. The
corrective action plan should include information such as the responsible
official/point of contact, time frames for completing the required actions,
milestones identifying how you will address the recommendations cited in this
report.




Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                            Page ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our staff during this audit.

Attachment

cc:     Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
        Jeffery Heslop, Chief Operating Officer, Office of the Chief
          Operating Officer
        Diego Ruiz, Executive Director, Office of the Executive Director
        Zayra Okrak, Assistant Director, Finance and Accounting Office, Office of
         Financial Management




Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                      Page iii
Audit of FedTraveler Travel Service
                                Executive Summary

Background. E-Gov Travel Service (ETS), one of the five General Service
Administration (GSA) managed E-Government (E-Gov) initiatives, was launched
in response to the President’s Management Agenda’s mission to improve the
internal efficiency and effectiveness of the federal government.

The Federal Travel Regulation, 41 C.F.R. § 301-73.101 mandated that federal
agencies fully deploy an ETS by September 30, 2006. Therefore, on March 31,
2005, after extensive evaluation of the three available ETS vendors, the
Securities and Exchange Commission (SEC or Commission) issued a task order
to HP Enterprise Services LLC to procure its FedTraveler travel system
(FedTraveler). FedTraveler is a comprehensive, end-to-end service to plan,
book, track, approve, and request reimbursement for travel services for
managing federal employees’ official travel. Although mandated to be deployed
by September 2006, FedTraveler was not fully deployed at the SEC until June
2008. Many federal agencies, in addition to the SEC, use FedTraveler.

The SEC Office of Inspector General (OIG) has received complaints about
FedTraveler since its implementation, including concerns about the imposition of
numerous administrative charges for a variety of unexplained reasons.

Objectives. The overall objective of the audit of FedTraveler was to assess the
adequacy of the service provided by FedTraveler and identify areas of
improvement to reduce or eliminate fraud, waste, and abuse. Specific audit
objectives included:

    •   Surveying SEC employees to determine the level of actual concern on the
        part of SEC employees with FedTraveler.

    •   Determining the source of administrative fees charged by FedTraveler and
        assessing the bases for the fees and whether the SEC and its employees
        are being unnecessarily overcharged by FedTraveler.

    •   Determining whether FedTraveler has effective controls over hotel
        accommodations and requires compliance with applicable rules and
        regulations and avoidance of waste, fraud, and abuse.

    •   Determining if there are areas where the SEC can reduce unnecessary
        costs.


Audit of FedTraveler Travel Service                              September 22, 2010
Report No. 483
                                      Page iv
Results. The OIG conducted this audit partially because of the numerous
complaints we received about FedTraveler from SEC employees since its
implementation. In a survey we launched to aid in the audit, we found that SEC
employees are significantly dissatisfied with FedTraveler. The largest
percentage of respondents to a survey question about costs responded that they
“strongly disagreed” that the FedTraveler system had lowered costs, even though
one of the stated goals of the E-Gov initiative was “to significantly reduce the cost
of federal travel management and to achieve dramatic cost savings.” SEC
employees who completed the survey also generally responded that they do not
believe that the hotel booking process has been simplified, with one traveler
commenting, “Booking a hotel is one of the most frustrating aspects of
FedTraveler.” Further, respondents felt the FedTraveler system did not reduce
the amount of time required to make travel arrangements (the largest percentage
of respondents (19.1 percent), “strongly disagreed” that the amount of time has
been reduced), even though another stated objective was to simplify the travel
process. In addition, a majority of survey respondents did not believe the
FedTraveler system was user friendly, although their satisfaction level had
increased over the past year, and they reported being satisfied with Fed Traveler
support services within the Commission.

An area of the FedTraveler system that has been particularly troubling to SEC
travelers (according to both the complaints we received and the survey results) is
the “excessive” FedTraveler transaction fees. Our audit confirmed that the
transaction fee structure is confusing and often excessive. We found that there
are actually three layers of transaction fees associated with FedTraveler: (1) an
initial charge when transportation is ticketed; (2) additional and often multiple
charges assessed when CI Travel, FedTraveler’s off-site travel management
center, provides assistance to the traveler; and (3) a report voucher fee that is
not charged until a traveler’s expense report has been finalized and approved for
payout. We found there is no proper explanation of these transaction fees
provided to SEC travelers.

We also reviewed sample itineraries and found specific and numerous instances
of excessive fees. Fees for some trips totaled over $100 and, in several cases,
travelers were charged transaction fees that represented a large percentage of
the total cost of their trips (e.g., one traveler was charged over $43 in transaction
fees for a trip costing less than $125). In all, we found that FedTraveler charged
SEC employees or contractors nearly $190,000 in transaction fees for travel over
a seven-month period.

Our audit further found that the fees being charged by FedTraveler for trips in our
sample were not in accordance with the fee schedule contained in the
FedTraveler task order signed by the SEC in March 2005, and that there was
significant confusion about what fees should be properly charged. In fact, during
the course of the audit we received conflicting opinions from the Contracting

Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                       Page v
Officer and Contracting Officer Technical Representative as to whether the
SEC’s task order or the GSA master contract pricing details applied to the
FedTraveler contract. We concluded that this confusion over the FedTraveler’s
fee structure raises significant concerns about the level of SEC monitoring of the
FedTraveler contract.

Our audit also identified several ways in which the SEC can reduce
transportation expenses by, among other things, educating travelers on utilizing
the allowable exceptions to the use of contract fares, and we made suggestions
to reduce the significant funds currently being expended for customer support,
which includes five full-time on-site contractor representatives at an annual cost
of over $1 million (excluding transaction costs). We found that requests for
actual expenses for lodging need to be more closely scrutinized and increased
controls are necessary for travel involving the use of a privately-owned vehicle.
We further found that a noteworthy number of travelers are not receiving their
reimbursements within a timely manner causing them to pay travel expenses out
of their own pocket. Finally, the audit determined that FedTraveler is not
providing the SEC with the reporting capabilities it promised and, as a result,
OFM is unable to thoroughly analyze the cost effectiveness of the system and
any anticipated changes.

Summary of Recommendations. Specifically, the OIG recommends that the
Office of Financial Management:

        (1) Establish a working group to independently analyze the survey
        results, comments, and suggestions made in response to the
        survey and make recommended improvements to the Associate
        Executive Director for Financial Management to help mitigate
        deficiencies with the system and ease the frustration of
        Commission employees.

        (2) Develop regular means of communication (i.e., website updates,
        newsletters or similar media) with Commission staff regarding
        common FedTraveler issues and solutions regarding booking
        airline and hotel accommodations, transaction fees, electronic
        preparation of travel authorizations and expense reports, etc. as
        well as any changes to existing travel policy.

        (3) Consult with FedTraveler and CI Travel to publish a guide for
        employees that clearly explains the transaction fee structure, including the
        amount, timing and frequency of fee charges.

        (4) Educate Commission staff on alternatives to contacting CI Travel to
        minimize non-self service transaction fees that result in high transaction
        costs for the SEC.

Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                       Page vi
        (5) Work with FedTraveler to require that travelers are notified when non-
        self service transaction fees are charged by CI Travel, including providing
        a justification for the charge and information regarding the travel itinerary
        to which the charge relates. Alternatively, the Office of Financial
        Management should consider centrally billing all transaction fees to
        remove the burden of reconciliation from Commission staff.

        (6) Determine the feasibility and cost effectiveness of implementing a
        financial system change to capture transaction fee costs in a distinct
        Budget Object Class (BOC) code, which will provide greater transparency
        for travelers on expense reports and potentially provide useful cost
        information for budget planning purposes.

        (7) Issue guidance to travelers regarding available exceptions to using the
        contract fare and tips on reliable outside sources for confirming that no
        contract flights exist prior to requesting a non-contract flight.

        (8) Remind travelers of the exceptions in the Federal Travel Regulation for
        claiming actual necessary expenses and require that travelers provide
        clear justifications in their travel authorizations when claiming actual
        necessary expenses, including the applicable Federal Travel Regulation
        exception.

        (9) Determine how the requirement in the SEC Travel Policy requiring
        travelers to call three hotels prior to requesting actual necessary expenses
        can be enforced or provide travelers and approving officials with
        alternative guidance on what they should do to locate Federal Travel
        Regulation compliant lodging and how their efforts should be documented.

        (10) Require approving officials to review and approve requests for actual
        expenses for lodging prior to such requests being routed to the Office of
        Financial Management. This will help ensure that travelers have
        exercised due diligence in their efforts to identify appropriate lodging and
        place responsibility on the approving official to ensure that justifications
        are appropriate.

        (11) Work with FedTraveler to implement additional system controls to
        ensure that travel by privately owned vehicles is in accordance with the
        Federal Travel Regulation, including routing such travel through the Office
        of Financial Management.

        (12) Request that FedTraveler institute a system control that notifies
        travelers when their expense reports have not been submitted within the
        time period permitted by the Federal Travel Regulation and SEC Travel
        Policy.

Audit of FedTraveler Travel Service                                   September 22, 2010
Report No. 483
                                       Page vii
        (13) Request that FedTraveler provide the needed reporting capability to
        enable OFM to effectively monitor the receipt and processing of expense
        reports in accordance with the Federal Travel Regulation.

        (14) Publish on its travel website best practices with regard to preparation
        of expense reports so travelers can avoid the most common mistakes that
        result in returned expense reports in FedTraveler.

        (15) Determine the feasibility and cost effectiveness of implementing a
        split disbursement method for payment of travel expenses.

        (16) Identify and request from FedTraveler ad-hoc reporting capabilities
        that are needed to successfully perform their travel responsibilities and
        analyze the cost effectiveness of implementing such changes.

        (17) Examine the activity level of the current customer service
        representatives to determine if the current number of representatives is
        appropriate.

        (18) Establish agency-specific performance measures or other means to
        monitor the service provided by the customer service representatives.

We also recommended that the Office of Administrative Services:

        (1) Request a legal opinion from the Office of General Counsel regarding
        the amount and frequency of fees charged by FedTraveler to ensure that
        the charges are appropriate and in accordance with the General Service
        Administration’s Master Contract and the Securities and Exchange
        Commission’s task order.

        (2) Request access from GSA to the master contract via GSA’s digital
        contract library and also provide access to the Contract Officer Technical
        Representative to assist in contract monitoring. OAS should also take
        appropriate measures to ensure that it is being properly notified by GSA of
        all changes to the master contract.




Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                      Page viii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ....................................................................................................... viii

Background and Objectives
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 2

Findings and Recommendations
     Finding 1: The OIG FedTraveler Survey Results Show a Large
     Percentage of SEC Travelers Remain Dissatisfied with FedTraveler and
     Several Important Objectives of the E-Gov Travel Initiative Have Not Been
     Accomplished ..................................................................................................... 3
                  Recommendation 1..................................................................... 14
                  Recommendation 2..................................................................... 14

         Finding 2: Excessive FedTraveler Transaction Fees Resulted in High
         Costs for the Commission ................................................................................ 15
                       Recommendation 3..................................................................... 19
                       Recommendation 4..................................................................... 19
                       Recommendation 5..................................................................... 20
                       Recommendation 6..................................................................... 20
                       Recommendation 7..................................................................... 20
                       Recommendation 8..................................................................... 21

         Finding 3: Opportunities Exist for Cost Savings Related to Transportation
         Expenses ......................................................................................................... 21
                       Recommendation 9..................................................................... 23

         Finding 4: Requests for Actual Expenses for Lodging Should be More
         Closely Scrutinized ........................................................................................... 24
                      Recommendation 10 ................................................................... 26
                      Recommendation 11 ................................................................... 26
                      Recommendation 12 ................................................................... 27

         Finding 5: Increased Controls are Needed in FedTraveler for POV Travel ..... 27
                      Recommendation 13 ................................................................... 28

         Finding 6: Expense Report Processing Can Be Improved .............................. 29
                      Recommendation 14 ................................................................... 31
                      Recommendation 15 ................................................................... 31
                      Recommendation 16 ................................................................... 31
                      Recommendation 17 ................................................................... 32
Audit of FedTraveler Travel Service                                                             September 22, 2010
Report No. 483
                                                      Page ix
         Finding 7: Limited FedTraveler Reporting Capabilities Affect OFM’s Ability
         to Manage Travel ............................................................................................. 32
                      Recommendation 18 ................................................................... 33

    Finding 8: OFM Should Examine Ways to Reduce FedTraveler On-Site
    Customer Support Costs .................................................................................. 34
                  Recommendation 19 ................................................................... 35
                  Recommendation 20 ................................................................... 35
Appendices
    Appendix I: Acronyms. ................................................................................... 36
    Appendix II: Scope and Methodology .............................................................. 37
    Appendix III: Criteria ......................................................................................... 38
    Appendix IV: List of Recommendations ........................................................... 39
    Appendix V: Management Comments ............................................................. 43
    Appendix VI: OIG Response to Management’s Comments ............................. 51

Tables
     Table1: Q.5 The FedTraveler System Has Lowered Travel Costs for the
     SEC ................................................................................................................ 4
     Table 2: Q.11 The FedTraveler System Has Simplified Hotel Booking
     Process For SEC Employees ............................................................................. 5
     Table 3: Q.12 The FedTraveler System Has Reduced the Amount of Time
     Required to Make Travel Arrangements ............................................................ 7
     Table 4: Q.6 I have found the FedTraveler System to be User Friendly ............ 8
     Table 5: Q.26 My Satisfaction with the FedTraveler System has
     Significantly Improved during the Past Year....................................................... 9
     Table 6: Q.22 Please Rate the Assistance You Received from Contacting
     FedTraveler ...................................................................................................... 11
     Table 7: Q.23 Please Rate the Assistance You Received from Office of
     Financial Management Officials, Regarding Your Questions or Problems
     Concerning FedTraveler .................................................................................. 11
     Table 8: Q.25 Please Rate your Satisfaction with the Service you
     Received from the Travel Management Center (Currently CI Travel) in
     Making or Changing Travel Reservations ........................................................ 11
     Table 9: Comparison of Orbitz Fares to GSA Contract Fares .......................... 23

Figures
     Figure 1: FedTraveler Travel Authorization Window ........................................ 28




Audit of FedTraveler Travel Service                                                          September 22, 2010
Report No. 483
                                                     Page x
                       Background and Objectives
Background
E-Gov Travel Service (ETS), one of the five General Service Administration (GSA)
managed E-Gov initiatives, was launched in response to the President’s Management
Agenda’s mission to improve the internal efficiency and effectiveness of the federal
government. In November 2003, GSA with the collaboration of over 23 federal
agencies, awarded Firm Fixed Price, Indefinite Delivery/Indefinite Quantity (IDIQ)
contracts to three ETS vendors: CW Government Travel, Inc. of San Antonio, Texas;
Electronic Data Systems Corporation (EDS) of Fairfax, Virginia (hereinafter referred to
as HP Enterprise Services, LLC); and Northrop Grumman Mission Systems of Fairfax,
Virginia. 1 Each contract has a possible period of performance up to ten years for the
provision of web-based, end-to-end travel management services to the federal
government. 2

The Federal Travel Regulation, 41 C.F.R. (FTR) § 301-73.101 mandated that federal
agencies fully deploy an ETS by September 30, 2006. Therefore, on March 31, 2005,
after extensive evaluation of the three available ETS vendors, the Securities and
Exchange Commission (SEC or Commission) issued a task order to HP Enterprise
Services, LLC to procure its FedTraveler travel system (FedTraveler). The SEC’s
evaluation process consisted of (1) analyzing the ETS vendors’ product application
features (e.g., training, application appearance, internal and external security, etc.)
based on product demonstrations; (2) reviewing user feedback from testing performed
at eight regional offices and (3) reviewing responses from the three ETS vendors to
SEC questions related to items such as help desk support. The process also included
reviewing vendor pricing.

Although mandated to be implemented by September 2006, FedTraveler was not fully
deployed at the SEC until June 2008. In order to minimize program disruptions to SEC
staff and address system integration issues between FedTraveler and the agency’s
financial accounting system, the Office of Financial Management (OFM) requested two
extensions from GSA to delay FedTraveler’s implementation. The Office of
Administrative Services (OAS) is responsible for administering the FedTraveler contract,
while OFM is responsible for daily contract oversight and is the official source for travel
guidance and regulations for domestic travel within the SEC.

FedTraveler is a comprehensive, end-to-end service to plan, book, track, approve, and
request reimbursement for travel services for managing federal employees’ official
travel. Many federal agencies, in addition to the SEC, use FedTraveler, including the
Department of Veterans Affairs, Department of Homeland Security, National Science

1
 See http://www.gsa.gov/portal/content/105399, “E-Gov Travel Service,” pg 1.
2
 See http://www.gsa.gov/graphics/fas/Overview_of_the_ETS_Master_Contracts_30-Sep-2009.pdf, “Overview of the
E-Gov Travel Service Master Contracts”, pg 1.
Audit of FedTraveler Travel Service                                            September 22, 2010
Report No. 483
                                                  Page 1
Foundation, and National Aeronautics and Space Administration. For the first six
months of Fiscal Year 2010, the SEC approved 5,682 travel authorizations, and
completed 4,344 expense reports (including 515 local expense reports) using
FedTraveler.

The SEC Office of Inspector General (OIG) has received complaints about FedTraveler,
including concerns about the imposition of numerous administrative charges for a
variety of unexplained reasons. These complaints have included an allegation that
“FedTraveler has consistently and repeatedly overcharged the Commission and its
employees for travel.” One complainant further described the FedTraveler system as “a
perfect example of government waste and abuse” and several employees have stated
that FedTraveler has turned out to be much more expensive and less user friendly than
the previous travel system the SEC had in place.

Objectives
The overall objective of the audit of FedTraveler was to assess the adequacy of the
service provided by FedTraveler and identify areas of improvement to reduce or
eliminate waste, fraud, and abuse. Specific audit objectives included:

    (1) Surveying SEC employees to determine the level of actual concern on the part of
        SEC employees with FedTraveler;

    (2) Determining the source of administrative fees charged by FedTraveler and
        assessing the bases for the fees and whether the SEC and its employees are
        being unnecessarily overcharged by FedTraveler;

    (3) Determining whether FedTraveler has effective controls over hotel
        accommodations and requires compliance with applicable rules and regulations
        and avoidance of waste, fraud, and abuse; and

    (4) Determining if there are areas where the SEC can reduce unnecessary costs.




Audit of FedTraveler Travel Service                              September 22, 2010
Report No. 483
                                        Page 2
                    Findings and Recommendations


Finding 1: The OIG FedTraveler Survey Results Show
a Large Percentage of SEC Travelers Remain
Dissatisfied with FedTraveler and Several Important
Objectives of the E-Gov Travel Initiative Have Not
Been Accomplished
         Although Commission staff reported growing satisfaction and
         excellent customer support related to FedTraveler, SEC travelers
         still have significant concerns with the system and many objectives
         of ETS have not been achieved, two years after its implementation.

In response to numerous concerns expressed by Commission staff to the OIG, we
launched an electronic survey to elicit feedback from recent travelers and alternate
preparers to determine the level of actual concern regarding various operational aspects
of FedTraveler. The survey was also designed to determine whether the goals of the
ETS initiative were being fulfilled at the SEC. Prior to launching the survey, we also
obtained feedback and suggestions from OFM in order to identify everyday issues that
are being reported to its office regarding FedTraveler.

All Commission employees who conducted official travel from October 1, 2009 to April
30, 2010 received the survey, in addition to staff members designated as alternate
preparers. To ensure that our survey results were limited to Commission employees
with actual experience using FedTraveler, a question at the beginning of the survey
asked respondents whether they had used the system to prepare their travel
arrangements. If an individual responded “no,” they were routed to the end of the
survey without being required to answer any further questions.

The survey was distributed via e-mail to 1,873 Commission employees on June 21,
2010, and was closed on July 9, 2010. During this period, a total of 938 employees
began the survey and 871 employees (92.9 percent) “completed” the survey. 3

The survey was comprised of 35 questions, including 21 questions where respondents
were encouraged to provide feedback in a “comments” section, and open-ended
questions that allowed respondents to provide suggestions on how to improve certain
FedTraveler functions. A summary of notable survey results is provided in this section.


3
 For the purposes of our survey, “completed” means that the recipient clicked on the “done” button at the end of the
questionnaire; all of the questions may or may not have been answered.
Audit of FedTraveler Travel Service                                                     September 22, 2010
Report No. 483
                                                      Page 3
Respondents Do Not Believe FedTraveler Has Lowered Travel Costs
One of the stated goals of the ETS initiative was to significantly reduce the cost of
federal travel management and to achieve dramatic cost savings. In complaints sent to
the OIG, Commission staff expressed concern that the SEC’s use of FedTraveler as its
electronic travel system has not only failed to lower costs, but has led to an increase in
costs to the SEC due to high transaction fees and increased transportation costs. One
complainant wrote that “the SEC is wasting huge resources with FedTraveler.” A
separate complaint expressed the belief that perceived overcharging by FedTraveler “is
done intentionally.”

To obtain feedback from SEC travelers on whether they believed the use of FedTraveler
was cost effective, we asked respondents whether they agreed with the statement, “The
FedTraveler system has lowered travel costs for the SEC.” The results to survey
question five are provided in Table 1 below.

           Table 1: Q. 5 – The FedTraveler System Has Lowered Travel Costs
           for the SEC. Number of Responses: 846
            Strongly     Agree        Somewhat   Somewhat   Disagree   Strongly   Cannot
            Agree                     Agree      Disagree              Disagree   Answer

            0.8%         3.4%         5.6%       9.3%       12.5%      13.1%      55.2%
          Source: OIG Generated


The largest percentage of respondents (13.1 percent) strongly disagreed that costs
have been lowered under FedTraveler, while the smallest percentage of employees (0.8
percent) strongly agreed that costs have been lowered. The majority of respondents
(55.2 percent) indicated that they did not have sufficient knowledge to answer this
question. When calculating the results using the responses of only those who felt they
could properly respond, a large majority of respondents (78 percent), did not agree that
costs have been lowered, compared to 22 percent of respondents who believed that
costs have been lowered under FedTraveler. The survey results raise serious
questions about the cost-effectiveness of the system and whether there have been
dramatic cost savings, as promised.

A total of 149 of 846 respondents commented on this question. Many respondents
admitted that they did not have actual information to determine whether travel costs
have been lowered overall, but stated that in their opinion the excessive fees and high
cost of transportation associated with FedTraveler has likely resulted in higher costs to
the Commission. A sample of the feedback the OIG received in response to survey
question five is provided below:

    •   “I think that FedTraveler vastly overcharges the Commission or the Government
        for services performed. In one instance of recent travel, the charge for
        FedTraveler services was $30 on an Amtrak Ticket of $60. That is a 50 [percent]

Audit of FedTraveler Travel Service                                        September 22, 2010
Report No. 483
                                                 Page 4
        Commission and is absolutely exhorbitant [sic]. It is reminiscent of the $100 toilet
        seats the Air Force used to have to pay for plane parts.”
    •   “Hotel costs are higher [and] airline flights are extremely high because we can go
        through only certain carriers. For example, recently I was a given a quote for a
        flight of $1,300 when I could have booked it online for less than $300.”
    •   “I don't know about the overall costs by comparison to the old system. I do know
        that we are constantly getting small charges tacked on to our expense reports
        without any explanation of what the charges are for or even what trip they relate
        to.”
    •   “Under the old system we were charged a 1 time flat fee per trip to contact CI
        Travel as often as changes were needed. FedTraveler charges a fee for the
        authorization, another fee for the expense report & a fee EVERYTIME we contact
        CI Travel regarding changes to the flight or issues with the flight.”

The concerns expressed by SEC employees regarding high travel costs related to
FedTraveler fees, and airline and hotel costs, have been analyzed at length during the
course of this audit. Findings 2, 3, 4, and 8 provide further discussion of these areas
and include recommendations on ways travel costs for the Commission can be lowered.

Respondents Do Not Believe the Hotel Booking Process Has Been
Simplified Under FedTraveler

As part of the solicitation process for ETS, GSA listed several requirements for an E-
Travel vendor’s online booking engine. These requirements included clearly listing all
available government rate hotels in a real time environment. During a telephone
interview with one complainant, this Commission employee explained the difficulties and
irregularities related to making hotel reservations through the online booking engine.
The employee explained that the system often fails to display all available government
rate hotels in a destination city, and that they have called several hotels and found the
hotels actually had government rate rooms available, contrary to what the online
booking engine showed.

To gather feedback from Commission staff regarding the FedTraveler hotel booking
process, we asked respondents whether they agreed with the statement, “The
FedTraveler system has simplified the hotel booking process for SEC employees.” The
survey results are provided in Table 2 below.

           Table 2: Q. 11 – The FedTraveler System Has Simplified the Hotel
           Booking Process For SEC Employees. Number of Responses: 840
            Strongly     Agree        Somewhat   Somewhat   Disagree   Strongly   Cannot
            Agree                     Agree      Disagree              Disagree   Answer

            2.0%         13.8%        13.9%      13.9%      13.6%      16.4%      26.3%
          Source: OIG Generated




Audit of FedTraveler Travel Service                                        September 22, 2010
Report No. 483
                                                 Page 5
The largest percentage of respondents (16.4 percent) strongly disagreed that the hotel
booking process had been simplified, while the smallest percentage of respondents (2.9
percent) strongly agreed. When including the responses of only those employees who
felt they could properly respond, a large majority (60 percent) disagreed that the hotel
booking process had been simplified. The results suggest that most Commission staff
are dissatisfied with the hotel booking process and that another important objective of
the ETS initiative may not have been achieved.

A total of 195 of 840 respondents commented on this survey question. Many
respondents expressed a high level of dissatisfaction with the hotel booking process,
and some indicated that the hotel booking process using the online booking engine was
so poor that they are forced to regularly book their hotel accommodations outside of the
system. A sample of the comments the OIG received to the survey are provided below:

    •   “Sometimes the hotels will show not available, but when you call, they are
        available for the government rate. Examiners need hotels close to the registrants
        and sometimes they are hard to locate through the system.”
    •   “It is very difficult to find hotels in FedTraveler. I always book hotels offline.”
    •   “Last time I tried to book a hotel through Fed Traveler, the recommended hotel
        was in a different city entirely from my destination.”
    •   “I have found that hotels I would like to stay at do not come up when I do a hotel
        search. But have been able to talk to the company directly, and there are
        government rates available.”
    •   “Booking a hotel is one of the most frustrating aspects of FedTraveler. It is very
        cumbersome to page through multiple hotel listings especially if you have a
        specific hotel in mind. Why you cannot simply input the hotel information in or
        simply add a hotel confirmation number is ridiculous.”

Additionally, the OIG’s concerns regarding the SEC’s internal controls over traveler’s
claims for actual lodging expenses are discussed in Finding 4, along with
recommendations to ensure travelers comply with applicable FTR requirements to
maximize cost savings for the Commission.

Respondents Do Not Believe FedTraveler Has Reduced the Time
Required to Make Travel Arrangements
Another stated objective of the ETS initiative was to simplify the travel process. As part
of a simplified process, it is a reasonable expectation that using the new system would
reduce the amount of time spent making travel arrangements. However, in complaints
sent to the OIG, several Commission employees stated that the system is extremely
time consuming to use. One employee stated that “rather than [doing] my job, I have
spent the better part of five hours trying to book a trip for this week that should take five
minutes to book.” Another complainant stated that “the FedTraveler system is a
disaster, taking hours of employee time to resolve problems with reimbursement and
travel.”
Audit of FedTraveler Travel Service                                   September 22, 2010
Report No. 483
                                           Page 6
To determine whether Commission staff believe that the time required to make their
individual travel arrangements has been reduced, we asked respondents whether they
agreed with the statement, “The FedTraveler system has reduced the amount of time
required to make travel arrangements.” The survey results are provided in Table 3
below.

          Table 3: Q. 12 – The FedTraveler System Has Reduced the Amount
          of Time Required to Make Travel Arrangements. Number of
          Responses: 839
            Strongly     Agree        Somewhat   Somewhat   Disagree   Strongly   Cannot
            Agree                     Agree      Disagree              Disagree   Answer

            2.4%         16.3%        16.3%      10.1%      13.8%      19.1%      21.9%
          Source: OIG Generated


The largest percentage of respondents (19.1 percent) strongly disagreed that the
FedTraveler system has reduced the amount of time it takes to make travel
arrangements, while the smallest percentage of respondents (2.4 percent) strongly
agreed. When including the responses of only those employees who felt they could
properly respond, a majority of employees (55 percent) disagreed that the time required
to make travel arrangements has been reduced. The results suggest that most
employees believe that the FedTraveler system has not resulted in a reduction in time
spent making travel arrangements, contrary to the expected benefits of the ETS
initiative.

A total of 139 of 839 respondents commented about this survey question. Many
respondents expressed frustration due to the time required to properly navigate through
all aspects of the system, because many travelers are now required to enter their travel
information into the FedTraveler system themselves, rather than the administrative staff.
A sample of comments to the survey the OIG received is provided below:

    •   “It takes FOREVER. Now I spend hours making travel arrangements when
        administrative support personnel used to do it -- it has become inordinately more
        time consuming than it ever was before.”
    •   “What used to take 5 minutes now often takes days to process. And, even then,
        the results are inaccurate. In many cases, flights booked through FedTraveler, if
        not ‘purchased’ within a certain time (with some airlines) or booked too early
        (with others) are cancelled by the airline without warning. This requires more
        desperate phone calls to CI Travel to fix.”
    •   “I've spent HOURS making reservations; used to take minutes with a quick
        internet search and a call to Omega.”
    •   “We now have to be our own travel agent and clerk in addition to doing our job.”
    •   “Reduced? This must be the joke question. This system has put the burden on
        the attorney and taken it away from the administrative staff.
        (So, maybe it's reduced the administrative staff's time, but, it has increased the
        attorney's time.)”
Audit of FedTraveler Travel Service                                        September 22, 2010
Report No. 483
                                                 Page 7
    •     “There are always problems and delays throughout the process.”

Respondents Find the FedTraveler System Is Not User Friendly
An additional goal related to the simplification of the travel process was to provide a
user friendly customer-centric system. In GSA’s ETS solicitation, vendors were
mandated to provide an integrated, web-based travel management environment that is
customer-centric. In several complaints sent to the OIG, Commission staff asserted that
the system was not user friendly. Complainants referred to the system as “horrendous”
and “confusing,” and further indicated it “lacks flexibility.”

To gather feedback from Commission staff regarding whether FedTraveler is user
friendly, we asked respondents whether they agreed with the statement “I have found
the FedTraveler system to be user friendly.” The results are included in Table 4 below.

        Table 4: Q. 6 – I Have Found the FedTraveler System To Be User
        Friendly. Number of Responses: 853
         Strongly      Agree          Somewhat   Somewhat   Disagree   Strongly      Cannot
         Agree                        Agree      Disagree              Disagree      Answer

         1.6%          15.7%          25.3%      17.7%      16.5%      19.9%         3.2%
        Source: OIG Generated


The largest percentage of respondents (25.3 percent) somewhat agreed that the system
is user friendly, while the smallest percentage of respondents (1.6 percent) strongly
agreed. However, when including the responses of only those employees who felt they
could properly respond, the majority (56 percent) of staff did not believe that the system
to be user friendly. The results suggest that most employees find the system is not user
friendly, contrary to the stated objective of the ETS initiative.

A total of 194 of 853 respondents commented about this question. Many respondents
indicated that the system lacked intuitiveness and they would prefer a system similar to
a public travel service website such as “Orbitz.” A sample of their comments is provided
below:

    •     “Only if you use it on a regular basis, and you are knowledgeable in travel, you
          are geographically inclined, resourceful, know the FTR rules and regs and all the
          in's and out's and keen and patient will you succeed in using this system.”
    •     “FedTraveler is one of the most user-unfriendly programs I've ever used.”
    •     “Unless you are a daily user it is difficult to gain sufficient knowledge of the layout
          of the website. Clearly lacks an intuitive framework.”
    •     “It is virtually impossible to understand some of the codes and means by which
          materials are submitted. The documentation that has to be scanned, faxed and
          submitted is duplicative and time-consuming.”


Audit of FedTraveler Travel Service                                         September 22, 2010
Report No. 483
                                                  Page 8
    •   “It is better than it used to be, but there still is no way to know exactly what is in
        each category, and the navigation ’system’ is weird, not intuitive, and ends up
        just being a guessing game to some extent.”
    •   “It is difficult to book -- and especially to rebook -- travel or to find convenient
        hotel locations or even sometimes the best air fares. The rules are
        [incomprehensible] unless well-studied, but, unfortunately, we don't get paid to be
        FedTraveler agents.”

As a result of the significant number of comments from Commission staff regarding the
time required to make travel arrangements in FedTraveler and difficulties using the
system, the OIG made recommendations regarding OFM communicating more regularly
with Commission staff about FedTraveler issues and solutions and mitigating
deficiencies to ease the frustration of Commission staff.

Respondents Report Their Satisfaction Level with the FedTraveler
System Has Improved Over the Last Year
The FedTraveler system was fully implemented at the SEC in June 2008, approximately
two years before the release of the OIG FedTraveler survey. Some of the complaints
the OIG received were made soon after the Commission converted to the electronic
travel system. Thus, it is possible that some of the frustration expressed by
Commission staff is directly related to the implementation period of the new system,
which can be common to a wide variety of software or other system conversions. In a
follow-up interview, one complainant expressed the belief that the FedTraveler system
had “slightly improved” since the date of their original complaint.

To determine whether satisfaction has improved since the period directly after
implementation, we asked staff whether they agreed with the statement, “My
satisfaction with the FedTraveler system has significantly improved during the past
year.” The results are provided in Table 5 below.

           Table 5: Q. 26 – My Satisfaction With the FedTraveler System Has
           Significantly Improved During the Past Year. Number of
           Responses: 839
            Strongly     Agree        Somewhat   Somewhat   Disagree   Strongly     Cannot
            Agree                     Agree      Disagree              Disagree     Answer

            3.7%         15.1%        28.0%      9.2%       12.9%      8.6%         22.5%
          Source: OIG Generated


The results suggest that satisfaction with FedTraveler is growing, as 46.8 percent of
respondents indicated that their satisfaction with the FedTraveler system has at least
somewhat improved during the past year, while 30.7 percent of respondents answered
their satisfaction has not improved. Using only the results of respondents who felt they
could answer properly, a majority (60 percent) reported that their satisfaction level had
increased. The results suggest that satisfaction with FedTraveler has increased as
Audit of FedTraveler Travel Service                                           September 22, 2010
Report No. 483
                                                 Page 9
employees become more familiar with the system and receive additional training. It is
reasonable to believe that at least some of the frustration regarding FedTraveler was
due to the recent implementation and the difficulties encountered when converting from
a manual to an electronic system.

A total of 74 of 839 respondents commented on this question. A sample of their
comments is provided below:

    •   “As employees within the SEC have become more familiar with the system, there
        has been improvement.”
    •   “I used to hate it. Now I am happier.”
    •   “Still some glitch [sic] happening here and there but, overall, the system has
        greatly improved.”
    •   “I work with [the system] so frequently that I can more accurately anticipate and
        avoid the issues and pitfalls that newer users may encounter.”
    •   “The more one uses the system, the easier it gets.”
    •   “If the survey shows FedTraveler is improving, then starting over with another
        provider may risk incurring a whole new round of start up problems and
        inconveniences.”
    •   “The process certainly seems more seamless than it did when it was first rolled
        out to the SEC employees.”


Respondents Report a High Level of Satisfaction with FedTraveler
Support Services, Including Within the Commission
Another stated goal of the ETS initiative was to improve customer service to the federal
traveler. Commission employees rely on three separate groups for support.
FedTraveler provides five on-site customer service representatives, and a
subcontractor, CI Travel, provides off-site travel management assistance. Within the
agency, OFM provides assistance relating to travel authorization approvals, expense
report approvals, and other travel policy related questions.

To determine the overall satisfaction level relating to the support received from these
three groups, we asked respondents to rate their satisfaction with the separate groups
in three different questions. The results are provided below.




Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                         Page 10
        Table 6: Q. 22 – Please Rate the Assistance You Received From
        Contacting FedTraveler CAS Representatives at (202) 551-5990
        Regarding Your Questions Or Problems Concerning FedTraveler.
        Number of Responses: 843
          Very          Satisfied     Somewhat     Somewhat        Dissatisfied    Very             Cannot
          Satisfied                   Satisfied    Dissatisfied                    Dissatisfied     Answer

          17.0%         20.4%         11.7%        4.6%            2.-5%           1.9%             41.9%
         Source: OIG Generated


        Table 7: Q. 23 – Please Rate the Assistance You Received From Office
        of Financial Management Officials, Regarding Your Questions or
        Problems Concerning FedTraveler. Number of Responses: 840
         Very         Satisfied     Somewhat      Somewhat        Dissatisfied    Very            Cannot
         Satisfied                  Satisfied     Dissatisfied                    Dissatisfied    Answer

         13.8%        16.0%         11.0%         4.3%            2.7%            2.5%            49.8%
        Source: OIG Generated


        Table 8: Q. 25 – Please Rate Your Satisfaction With the Service You
        Received From the Travel Management Center (Currently CI Travel) In
        Making Or Changing Travel Reservations. Number of Responses: 840
         Very         Satisfied     Somewhat      Somewhat        Dissatisfied    Very            Cannot
         Satisfied                  Satisfied     Dissatisfied                    Dissatisfied    Answer

         9.2%         25.1%         13.8%         5.5%            3.8%            3.7%            38.9%
        Source: OIG Generated


The results suggest that Commission employees are receiving good support relating to
FedTraveler. When including the responses of only those employees who felt they
could properly respond to the question, FedTraveler customer support representatives
received an 85 percent satisfaction rating, members of OFM received an 81 percent
satisfaction rating, and CI Travel received a 79 percent satisfaction rating.

Respondents provided a total of 408 comments to questions 22, 23, and 25. A sample
of their responses is provided below:

    •     “The FedTraveler CAS representatives are very helpful. I am grateful that they
          are so responsive.”
    •     I cannot say enough great things about Program Specialist, OFM Financial
          Operations Branch and Program Analyst, OFM Financial Analysis Section.
    •     Program Specialist, Financial Operations Branch, is very helpful and took extra
          time in a classroom situation to teach me individually.
    •     “I missed my flight. I called CI Travel and they quickly and easily changed to the
          next available flight, and it was a less expensive flight, too! They were very
          calming under a very stressful situation and handled things very quickly and
          professionally.”

Audit of FedTraveler Travel Service                                                  September 22, 2010
Report No. 483
                                                     Page 11
Respondents Provided Significant Written Feedback to Open-Ended
Questions Regarding Needed Improvements to the Operational
Aspects of the FedTraveler System
The OIG FedTraveler survey contained eight open-ended questions in which
Commission staff were encouraged to provide suggestions to improve different
elements of the system. A sample of the questions that were asked and the
respondents’ answers to the questions are provided in this section.

Question 30 asked respondents to provide suggestions for areas where enhanced
internal controls are needed to ensure compliance with the Federal Travel Regulations.
A total of 82 respondents commented on this question. A sample of these suggestions
is provided below:

    •   “The manager requiring the travel should be the one approving the travel
        authorization. Not currently happening.”
    •   “Linking FTR [regulations] to travel choices in the system as a learning tool. Few
        if any travelers have the time or inclination to review the regulations. The SEC
        Travel Policy booklet is a good start.”
    •   “As stated many times throughout this survey, I feel to better enhance FT and
        help us ensure compliance with FTR rules, instructions more specific to our
        agency need to be listed on FT. The SEC policies comply with FTR rules, but
        many FTR rules state ‘see [your] agency's rules and regulations’. Also, a listing
        of our agency specific FT practices should be listed, such as when to amend a
        doc and when to change the expense in the voucher, etc. This is not a FTR rule
        nor is it a general FedTraveler help topic.”

Question 31 asked respondents to provide suggestions for overall improvement of the
system. There were 158 respondents who provided feedback. A sample of their
comments is provided below:

    •   “Would much prefer that payment for air travel and hotel be paid directly by
        agency, rather than billed to me and then reimbursed.”
    •   “It would be helpful to be able to upload PDF copies of receipts directly into the
        system instead of relying on fax machines. Our fax machines are not of high
        enough quality so I have to send in PDFs anyway.”
    •   “It seems like we put the resources burden on the traveler along with the financial
        burden on the traveler. And...we are still probably paying a heck of a lot to
        support and keep this system up and running. So, all of that should be revisited.”
    •   “More frequent training sessions for the travelers to help them in preparing their
        travel requests and expense reports. Annual and extensive training sessions for
        preparers and alternate preparers so that they are in a better position to assist
        fellow employees and supervisors with their travel plans.”


Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                          Page 12
    •   “Hold advanced training for alternative preparers. Take what you've learned, and
        teach them better how to deal with problems.”

Question 35 allowed respondents to voluntarily provide their contact information if they
wished to provide further comments directly to the OIG. There were 55 responses to
this question. We selected a sample of these respondents and contacted them via
telephone and e-mail. A summary of the feedback obtained is provided below:

    •   The majority of employee frustration with FedTraveler is due to the inexperience
        of the large majority of users. Administrative personnel are better suited to work
        with the FedTraveler system because they have more experience.
    •   It is difficult to get an expense voucher amended to include any extra fees that
        are incurred before, during, or after the trip. Extra fees are often paid by the
        traveler and never reimbursed.
    •   The system often forces a traveler to fly into an airport less convenient and at
        more expense than flying into a nearby airport and renting a car.
    •   It would be helpful to have easy access to a travel manual that outlines how to
        handle specific travel occurrences and how to avoid common problems that
        employees encounter.

In addition to the telephone interviews, one Commission employee provided a
memorandum documenting various negative experiences encountered with FedTraveler
system. The memorandum detailed many issues specifically related to international
travel. A summary of this information is provided below:

    • Reservations have been cancelled without notice because of a delay in the travel
      authorization approval process.
    • Airline tickets were not properly issued, leaving the traveler stranded at the
      airport. This required four telephone calls to CI Travel, which resulted in a total
      of $130.52 in transaction fees.
    • The system did not properly record rental car reservations, which required more
      telephone calls to CI Travel and the associated transaction fees.
    • There have been significant delays of up to six months for foreign travel
      reimbursement.
    • It is believed that there are much less expensive international flight options
      outside of the FedTraveler system.

Conclusion
While the survey results show that Commission staff are receiving good customer
support and are becoming more satisfied with the system, significant areas of concern
still need to be addressed. The OIG determined that OFM should establish a working
group to independently analyze the survey results, comments, and suggestions made in
response to the OIG survey and recommend improvements to the Associate Executive

Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                          Page 13
Director for Financial Management, to help mitigate deficiencies with the system and
ease the frustration of Commission employees.

Further, OFM should identify areas where performance metrics should be developed to
properly monitor and address areas of concern. For example, Commission staff
complained of delays in being credited for cancelled airline tickets, a process which is
initiated by CI Travel. We found that CI Travel is not contractually required to process
cancelled airline tickets within any specific time period. This is an example of an area
where performance monitoring may be necessary.

Additionally, solutions and updates regarding common employee areas of concern
should be regularly communicated to Commission staff. Employee frustration may be
reduced if SEC administrative bulletins about FedTraveler are periodically issued and
updates to SEC Travel Policy are regularly available.

        Recommendation 1:

        The Office of Financial Management should establish a working group to
        independently analyze the survey results, comments, and suggestions made in
        response to the Office of Inspector General survey and make recommended
        improvements to the Associate Executive Director for Financial Management to
        help mitigate deficiencies with the system and ease the frustration of
        Commission employees.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 2:

        The Office of Financial Management should develop regular means of
        communication (i.e., website updates, newsletters or similar media) with
        Commission staff regarding common FedTraveler issues and solutions regarding
        booking airline and hotel accommodations, transaction fees, electronic
        preparation of travel authorizations and expense reports, etc. as well as any
        changes to existing travel policy.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.




Audit of FedTraveler Travel Service                               September 22, 2010
Report No. 483
                                        Page 14
Finding 2: Excessive FedTraveler Transaction Fees
Resulted in High Costs for the Commission
                  FedTraveler transaction fees are not clearly explained to
                  travelers, can be excessive, and are not properly monitored
                  by Commission contracting authorities.

Overview
According to numerous complaints sent to the OIG, significant confusion exists
regarding FedTraveler transaction fees. In an incident data report obtained from
FedTraveler representatives, a significant portion of calls made to the on-site
FedTraveler customer service representatives were directly related to transaction fee
questions and complaints. In addition, a May 2010 FedTraveler performance
assessment prepared by the OFM for GSA was critical of fee charges within
FedTraveler, stating that “the system does not make clear at all to users what fees are
charged and why…this is constantly causing problems for users.”

Many SEC employees expressed confusion and frustration relating to transaction fees,
in response to the OIG’s survey. More specifically, in response to an OIG survey
question asking whether travelers have encountered any issues with FedTraveler’s
administrative charges or fees that they felt were duplicate, erroneous or inaccurate,
265 respondents provided an affirmative response. One respondent commented that
“we don't know what the fees should be, and it's hard to know where they are on the
expense reports.” Another stated, “I believe staff are overcharged. When I have
inquired at my local office, I was told SEC was aware of [the] problem and [there is]
nothing they could do about it.”

In an attempt to fully understand the FedTraveler system fee structure, we reviewed the
SEC task order and the GSA master contract, and consulted extensively with
representatives from FedTraveler, OAS, OFM, and GSA. Although we were able to
verify the general fee structure of the FedTraveler system, we found that a significant
and alarming amount of confusion exists not only among employees, but with members
of the Commission staff responsible for contract administration. We also found that
there is insufficient monitoring of FedTraveler fees and modifications to the GSA master
contract that significantly affects travel costs at the SEC.

Transaction Fee Structure (Option Period 2). Based upon our review, we found that
there are three layers of transaction fees associated with FedTraveler. Initially, a
traveler is charged a fee when transportation is ticketed in the system. 4 The most
common charge is $10.03, which is for self-service airfare or rail transportation with or
without lodging. A charge of $7.24 is assessed for reservations of lodging and/or rental

4
 For hotel/rental car only, the fee is charged on the check-in/pick-up date.
Audit of FedTraveler Travel Service                                            September 22, 2010
Report No. 483
                                                      Page 15
car only. If CI Travel, FedTraveler’s off-site travel management center is utilized, the
transaction becomes non-self service and a charge of $32.83 (domestic) or $35.59
(international) is assessed. A second layer of non-self service charges is assessed if CI
Travel is utilized after the initial ticketing, such as for changing a flight. Consequently,
the non-self service charge may be assessed each time CI Travel provides assistance,
which can result in multiple charges per day. The final charge assessed is a $10.72
report voucher fee. This fee has generated significant confusion because it is not
charged until a traveler’s expense report is finalized and approved by OFM for payout.
Depending on the lapse in time between a traveler filing an expense report and
obtaining approval, there may be a significant period of time between the travel date
and the assessment of this fee. Travelers have reported confusion related to this fee
because it suddenly appears on their individually billed credit cards, and many travelers
have expressed concern they are not being reimbursed for this fee. However, this fee is
automatically populated into all expense reports, so travelers are reimbursed for this
amount at the same time that it is charged to their credit card.

We found that the FedTraveler system does not contain a proper explanation of these
transaction fees. There is a brief explanation of the fee structure on the FedTraveler
website’s Frequently Asked Questions (FAQ) section; 5 however the language is
unclear, containing mostly technical terms. Matching fees to the proper travel
occurrences for individual reconciliation is also extremely difficult, especially for frequent
travelers who generate many transaction fees during the same time period.

Excessive Fees. During our review of the transaction fees, we generated a sample of
63 travel itineraries to examine the amount, timing, and frequency of transaction fee
charges. We found that travelers were often charged several non-self service fees for a
single trip. As a result, fees for some trips totaled more than $100, including one trip
where fees totaled $109.21 and another trip where fees totaled $100.13. In addition,
there were three instances where trips resulted in total transaction fees of $76.38, and
one instance where a traveler was charged $86.41. We also found situations where
transaction fees represented a large percentage of the overall cost of a trip. For
example, a traveler was charged $43.55 in transaction fees for a trip that cost $124.75,
resulting in a 35 percent increase in cost. In a separate example, transaction fees
represented over 12 percent of the total cost of trip when a total of $70.54 was charged
for a trip that cost $566.70. For local travel reimbursement, the ratio of fees to total cost
was even higher. For example, a traveler was charged $5.23 to recover a $9 taxi fare,
which represented a 58 percent charge.

In the period from October 1, 2009 to April 30, 2010, a total of $187,939.52 in
transaction fees was charged by FedTraveler for non-local travel, resulting in an
average cost of over $36 per traveler. This high average is due primarily to charges CI
Travel assessed travelers for assistance in what it calls “non-self service” transactions.
We asked FedTraveler representatives to clarify when fees for non-self service

5
  See http://www.fedtraveler.com, “FAQs and Support”, Question 14: When are service fees charged? Also, see
related question: How do I know what transaction fees will be charged?
Audit of FedTraveler Travel Service                                                  September 22, 2010
Report No. 483
                                                   Page 16
transactions from CI Travel were appropriate, and they stated that the fee should only
be assessed when a traveler calls for assistance with ticketing, or when a ticket must be
reissued. However, Commission staff complained of frequent charges for non-self
service transaction fees from CI Travel that were not related to ticketing.

To determine if CI Travel charges were directly related to ticketing issues, we generated
a sample of non-self service fees and asked FedTraveler to review CI Travel’s call logs
and provide the justification for each charge. 6 We found that contrary to the
representations made by FedTraveler, it appeared that every time CI Travel was
contacted, regardless of the issue, a non-self service fee would be generated, often
amounting to several charges in one day. For example, we found charges relating not
only to airline ticketing changes, but also for when hotel reservations were changed,
when a traveler had an issue with the processing of an individually billed credit card,
and for airline seat changes. We also found that anytime an Amtrak ticket was
purchased, SEC travelers were required to call CI Travel and thus incurred a non-self
service fee. This was also required anytime mixed mode travel was booked, meaning
one portion of a trip was by air, and another was by rail.

We consulted with the GSA Contracting Officer (CO) to obtain further clarification
regarding non-self service fees and provided examples of when these types of fees are
being assessed. The GSA CO provided the OIG a response indicating that the fees
were appropriate and properly charged by CI Travel. Despite GSA’s response, we
found that the limitless ability of CI Traveler to charge non-self service fees related to
the FedTraveler system is contrary to the information obtained from FedTraveler
representatives during our review. This method is also contrary to the manner in which
non-self service transaction fees were charged by Omega Travel, the former system
utilized by the SEC. Under Omega, non-self service fees were limited only to instances
when a traveler was assisted during the ticketing process or when a ticket was reissued.

We believe the SEC should further explore whether the frequent non-self service
charges are proper under the FedTraveler GSA Master Contract and the SEC task
order since these fees account for a significant part of the Commission’s travel costs.
Additionally, travelers are not informed of these charges and are often surprised to find
several charges listed on their individually billed government travel card. Further, some
travelers stated in response to the OIG’s survey that they are paying for some fees out
of their own pocket. In conclusion, without proper monitoring of these non-self service
fees, it is impossible to fully capture the full costs of the FedTraveler system that are
passed on to the SEC.

Contract Oversight. We also found that the fee amounts being charged by
FedTraveler for trips in our sample were not in accordance with the fee schedule
contained in the FedTraveler task order signed by the SEC on March 31, 2005.



6
 The non-self service fees examined pertained to 26 trips.
Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                                     Page 17
The SEC’s task order SECHQ1-05-F-0062 provided for slight pricing changes in three
separate option periods. The contract is currently in option period two (in conjunction
with the GSA master contract periods of performance). The option was exercised by
the SEC and went into effect on November 12, 2008, and is scheduled to expire on
November 11, 2010. The task order consisted of transaction fee prices in the amount of
$8.18 for self service air or rail transportation, and $30.98 (domestic) and $33.74
(international) for non-self service transaction fees, for option period 2. We found that
FedTraveler charged $10.03, $32.83, and $35.59 for the same services during this
period. Upon examination of OAS’ contract files; there was no evidence of any task
order modifications relating to these fees.

We consulted with the SEC CO and were informed that the SEC’s task order should be
binding. The CO stated that she had not been granted access to the GSA master
contract, but that task orders supersede GSA master contracts for pricing details. The
CO also stated that she had not been notified or provided any modifications of the GSA
master contract relating to the fees in question.

We also consulted with the SEC Contracting Officer’s Technical Representative (COTR)
for FedTraveler. The COTR disputed the CO’s position that the task order took
precedence over the GSA master contract price and stated that the GSA master
contract controlled pricing, and that several modifications had been made by GSA and
FedTraveler, resulting in higher transaction fees. The COTR explained that she would
have to physically go to GSA to be able to view the master contract files, but that she
had obtained copies of the modifications relating to fee increases.

As a result of the conflicting opinions from the CO and COTR, the OIG requested a
formal opinion from OAS concerning the FedTraveler transaction fees. Without
consulting with the Office of General Counsel (OGC), OAS issued an opinion in an e-
mail on July 7, 2010, stating that the task order should take precedence regarding
transaction fee pricing, and the CO directed the COTR to begin calculating the possible
amount of overpayment to FedTraveler. The opinion stated that a master contract only
establishes the parameters of the requirements to be purchased, but task orders
establish the specifics and bind agencies and contractors to the details agreed upon in
the task order.

OAS’ opinion referenced a GSA document called the “E-Travel Service Ordering
Guide.” We reviewed this document and in one section found that the document
actually contained language contrary to the opinion the OAS CO provided to the OIG.
The referenced cite clearly stated that price increases or decreases at the master
contract level will be automatically applied to agency specific task orders, regardless of
agency approval. Consequently, this indicates that the master contract prices take
precedence over the task order.

We also obtained access to the GSA master contract through a GSA electronic library
and found that the master contract contained similar language as the GSA Ordering

Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                         Page 18
Guide; however, the language specified that only “price decreases” are automatically
applied to agencies. The master contract also indicated that the transaction fees in
question were not allowed to be negotiated at the task order level. In an e-mail on July
9, 2010, the CO reversed her initial opinion and stated that this contract structure is not
typical, and that due to this language, a fee schedule should not have been included in
the original task order that was signed in 2005.

Therefore, based on the OIG’s review of the GSA Ordering Guide and the master
contract, we determined that the master contract would likely take precedence over the
task order. However, because this issue was never referred to the OGC, we believe it
would be prudent for the OFM, in conjunction with OAS, to obtain OGC’s opinion
regarding the relationship between the master contract and task order, and whether
fees are being charged in the proper amounts and frequency.

Conclusion

The SEC’s confusion over the FedTraveler fees structure raises significant concerns
about the monitoring of the FedTraveler contract. Neither the CO nor the COTR had
electronic access to the master contract, seriously reducing their ability to effectively
administer this contract.

In addition, serious questions exist concerning the frequency and amount of
FedTraveler transaction fees. This information has a direct effect on the SEC’s travel
costs and is necessary to fully capture all costs associated with the FedTraveler system
in order to maintain proper budgetary planning and cost comparisons when future
option periods or other travel contracts are being considered.

        Recommendation 3:

        The Office of Financial Management should consult with FedTraveler and CI
        Travel to publish a guide for employees that clearly explains the transaction fee
        structure, including the amount, timing and frequency of fee charges.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 4:

        The Office of Financial Management should educate Commission staff on
        alternatives to contacting CI Travel to minimize non-self service transaction fees
        that result in high transaction costs for the Commission.



Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 19
        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 5:

        The Office of Financial Management (OFM) should work with FedTraveler to
        require that travelers are notified when non-self service transaction fees are
        charged by CI Travel, including providing a justification for the charge and
        information regarding the travel itinerary to which the charge relates.
        Alternatively, OFM should consider centrally billing all transaction fees to remove
        the burden of reconciliation from Commission staff.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 6:

        The Office of Financial Management should determine the feasibility and cost
        effectiveness of implementing a financial system change to capture transaction
        fee costs in a distinct Budget Object Class (BOC) code, which will provide
        greater transparency for travelers on expense reports and potentially provide
        useful cost information for budget planning purposes.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 7:

        The Office of Administrative Services should request a legal opinion from the
        Office of General Counsel regarding the amount and frequency of fees charged
        by FedTraveler to ensure that the charges are appropriate and in accordance
        with the General Service Administration’s Master Contract and the Commission’s
        task order.

        Management Comments. OAS concurred with the recommendation. See
        Appendix V for management’s full comment.

        OIG Analysis. We are pleased that OAS concurred with this recommendation.


Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                          Page 20
        Recommendation 8:

        The Office of Administrative Services (OAS) should request access from the
        General Services Administration (GSA) to the master contract via GSA’s digital
        contract library and also provide access to the Contract Officer Technical
        Representative to assist in contract monitoring. OAS should also take
        appropriate measures to ensure that it is being properly notified by GSA of all
        changes to the master contract.

        Management Comments. OAS concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this recommendation.

Finding 3: Opportunities Exist for Cost Savings
Related to Transportation Expenses
        The SEC can reduce transportation expenses by encouraging
        travelers to book early and allowing travelers, when practical, to
        utilize a non-contract fare within the provisions of the FTR.

For Fiscal Year 2009, the SEC spent approximately $3.4 million for transportation
expenses, including airfare. The FTR, which governs federal employee travel, requires
travelers, with certain exceptions, to use a GSA contract fare for air travel. 7 According
to FedTraveler representatives, the airline transportation choices available through
FedTraveler’s online booking engine are based on the GSA Airline City-Pair Program.
Under this program, GSA awards competitive contracts for air transportation services
between specified destinations, called city-pairs, based on the best overall value to the
government. For many city-pairs, two contract fares are available. A highly discounted
unrestricted fare (YCA), and a capacity controlled fare (_CA) which has an even deeper
discount. The _CA fares have a limited number of seats, but no other restrictions. Also,
the _CA seat availability on particular flights varies carrier-by-carrier and market-by-
market.

The _CA airfares allow an agency to save the most money possible, while still enjoying
the same service available with the YCA fares. The price differential between the YCA
and _CA fares varies market by market, but can be significant. For example, the _CA
fare from Ronald Reagan National Airport to Fort. Lauderdale, Florida is $149 (one
way), while the YCA fare is $329 (one way), more than double. Use of the _CA fares is
encouraged by the FTR (Note 3 to FTR § 301-10.107).




7
 FTR § 301-10.106
Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                         Page 21
The benefits of contract fares include:

    •   Fare price on one-way routes permitting agencies to plan multiple destinations;
    •   No advance purchase required;
    •   No minimum or maximum length stay required;
    •   Fully refundable tickets;
    •   Last seat availability; and
    •   No blackout periods

To maximize possible savings for the SEC, OFM should encourage travelers to book
their flights early and consider the following: If travel plans are uncertain (e.g., last-
minute ticket changes are likely), compare the differential between the YCA and _CA
fares with the cost of any transaction fee to make ticketing changes. If the differential is
small, it may be more cost effective to book an YCA fare from the start. If the
differential is large, it may be more beneficial to book a _CA fare and make changes, if
necessary.

In addition, OFM should educate travelers on the best ways to identify and select airline
transportation to ensure maximum savings for the Commission. We found that in
response to an OIG FedTraveler survey question asking whether FedTraveler has
lowered travel costs for the SEC, several travelers commented that they can find
cheaper fares on non-contract flights on the web, or by using alternative airlines. One
traveler commented that “…airline flights are extremely high because we can go
through only certain carriers. For example, I was given a quote for a flight of $1,300
when I could have booked it online for less than $300.” Another traveler wrote that “my
initial trip to Miami was 1200 [round-trip] - after I questioned –it was 500ish.”

Additionally, through discussions with OFM and a review of traveler comments, we
found that FedTraveler does not always list all available contract fares. One traveler
commented, “I have found lower government airfares and called FedTraveler to get
them after being reserved at a fare that was obviously too high.” Another traveler stated
that “there have been contract flights that do not appear in FedTraveler that I have
found conducting outside searches.” OFM informed us that due to this issue they often
utilize the website http://www.fedtravel.com to make sure no contract flights are
available prior to approving travelers’ request for non-contract flights.

We also compared the GSA city-pair fares with fares available on Orbitz for round-trip
flights between Washington, D.C., and Los Angeles, Miami, and Chicago, and found
that non-restricted fares on Orbitz were less than the GSA city-pair fares, while
refundable rates on Orbitz were higher than the lowest GSA contract flight available, but
lower than many of the higher contract fares available, as shown below in Table 9:




Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 22
    Table 9: Comparison of Orbitz Fares to GSA Contract Fares
      Round-Trip Airfare          Orbitz (Non-   Orbitz         GSA Contract Flight
                                  Refundable)    (Refundable)   (Refundable)
     Washington D.C. area         $279           $921           $280-$1,334*
     to Los Angeles
     Washington D.C. area      $204              $641            $312-$1,056*
     to Miami                                    (BWI only)
     Washington D.C. area      $177              $471            $190-$990*
     to Chicago
     * Range is based on alternative airports in the LA, Miami, and Chicago area.
    Source: OIG Generated

We found that while the FTR generally requires travelers to use a GSA contract fare for
air travel, an agency may authorize the use of a fare other than a contract city-pair in
certain circumstances, including when: (1) space on a scheduled contract flight is not
available in time to accomplish the purpose of the travel; (2) use of contract service
would require the traveler to incur unnecessary overnight lodging that would increase
the total cost of the trip; or (3) if a non-contract carrier offers a lower fare to the general
public that, if used, will result in a lower total trip cost to the government (the combined
costs of transportation, lodging, meals, and related expense considered). 8

FTR § 301-10.108 states that before purchasing a non-contract fare a traveler must
show approval on his or her travel authorization to use a non-contract fare. Additionally,
if the non-contract fare is non-refundable, restricted, or has specific eligibility
requirements, the traveler must know or reasonably anticipate, based on their planned
trip, that they will use the ticket, and the agency must determine that the proposed non-
contract transportation is practical and cost effective for the government.

Had SEC travelers been aware of these exceptions, they may have been able to utilize
lower fares that they identified in their comments to the OIG survey as being unavailable
to them. Accordingly, OFM should inform staff about the available exceptions to using
contract fares and under what conditions they can use non-contract rates to save on
transportation travel costs. OFM should also provide staff with tips on reliable outside
sources for confirming that no contract flights exist outside of FedTraveler prior to
requesting a non-contract flight.

        Recommendation 9:

        The Office of Financial Management should issue guidance to travelers
        regarding available exceptions to using the contract fare and tips on
        reliable outside sources for confirming that no contract flights exist prior to
        requesting a non-contract flight.

        Management Comments. OFM concurred with the recommendation.
        See Appendix V for management’s full comments.

8
 FTR § 301-10.107
Audit of FedTraveler Travel Service                                           September 22, 2010
Report No. 483
                                                 Page 23
        OIG Analysis. We are pleased that OFM concurred with this
        recommendation.

Finding 4: Requests for Actual Expenses for
Lodging Should Be More Closely Scrutinized
        Although FedTraveler has sufficient controls to prohibit travelers
        from exceeding the applicable per diem rate for a specified location,
        travelers are not always providing clear and complete justifications
        for actual expenses for lodging in accordance with the FTR and
        SEC Travel Policy.

FTR § 301-11.300 permits travelers to be paid actual expenses when:

        (a) Lodging and/or meals are procured at a prearranged place such
        as a hotel where a meeting, conference or training session is held;

        (b) Costs have escalated because of special events (e.g., missile
        launching periods, sporting events, World’s Fair, conventions,
        natural disasters), lodging and meal expenses within prescribed
        allowances cannot be obtained nearby; and costs to commute
        to/from the nearby location consume most or all of the savings
        achieved from occupying less expensive lodging;

        (c) Because of mission requirements; or

        (d) Any other reason approved within your agency.

FTR § 301-50.8(b)(2) states that when travelers are selecting lodging, the first
consideration must be given to the lodging facilities under FedRooms. FedRooms is a
GSA program that provides FTR compliant hotel rooms for federal government travelers
while on official business. FedRooms rates may be at or below per diem rates and the
hotels are fire safe/FEMA certified. Not all hotels that provide a government rate are
included in the FedRooms program, and not all hotels that provide a government rate
are FEMA certified.

In accordance with the SEC’s Travel Policy, travelers must request actual expenses for
lodging in advance of travel, include a justification on their travel authorization, and have
it approved by OFM prior to departing for their trip. The SEC Travel Policy further
states, “For example. If the hotel exceeds the maximum lodging rate, it is your
responsibility to call at least three other hotels prior to requesting actual expense for
lodging.”



Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 24
We found that FedTraveler has sufficient controls to prohibit travelers from exceeding
the applicable per diem rate for a specified location. The FedTraveler system
automatically populates a traveler’s travel authorization with the per diem rate for the
destination city, unless the traveler selects one of the exceptions from the per diem pull
down menu, such as “actual necessary 150 percent” or “actual necessary 300 percent.”
If either of these selections are made, the traveler is permitted in the travel reservations
page to uncheck the standard nightly lodging rate and enter the actual lodging rate.
The maximum lodging rate on the reservations page is then recalculated at either 150
percent or 300 percent, depending on the selection made. Once the traveler clicks on
“complete authorization,” the traveler will be presented with a blank justification screen
associated with the actual increase in the hotel per diem rate. This screen requires the
traveler to enter a written justification for claiming actual necessary expenses for
lodging. The traveler then clicks on “complete authorization,” and the travel
authorization is electronically routed to OFM as the first level of approval in the approval
chain, prior to being routed to an approving official (typically the traveler’s supervisor).

We also found, however, that many of the justifications provided by travelers were
vague and did not comply with the FTR and SEC Travel Policy. We obtained and
analyzed Fiscal Year 2010 FedTraveler trip data (as of April 30, 2010) where travelers
requested and were approved to incur actual expenses for lodging to determine whether
sufficient justifications were provided by travelers in accordance with applicable
requirements. We found that many of the travelers’ justifications were vague and did
not cite the specific exception in the FTR allowing the traveler to claim actual expenses.
Additionally, there was no documentation to show that travelers were complying with the
SEC Travel Policy to call at least three other hotels prior to requesting actual expense
for lodging. For example, we found the following justifications for some trips: “hotel is
above per diem,” “had to choose because the hotel was $45 more than per diem,” “had
to bump up the per diem,” and “to cover any unforeseen hotel costs.”

We also conducted a detailed review of five judgmentally selected trips where travelers
provided vague justifications for claiming actual expenses for lodging to determine
OFM’s rationale for approval. We found that OFM, after conducting its own research on
available lodging through FedTraveler and websites such as http://www.fedtravel.com,
added remarks to the travel authorizations citing the applicable section of the FTR
permitting the exception. These remarks served to supplement the vague justifications
provided by travelers. Additionally, we noted that travel authorizations do not contain
sufficient information to enable OFM and approving officials to enforce the SEC Travel
Policy requirement that a traveler call at least three other hotels prior to requesting
actual expense for lodging in situations where lodging is not prearranged. Further,
because there is no requirement that travelers book their lodging accommodations at
the time they complete their travel authorization in FedTraveler, travelers could
intentionally wait to book their lodging accommodations and then claim actual
expenses, causing the Commission to incur unnecessary expenses for travel.



Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 25
As a result, OFM should remind travelers and approving officials that lodging
accommodations should be booked as soon as possible to minimize costs to the
Commission and refer to the OIG any travelers who they believe are potentially abusing
the system by routinely requesting actual lodging expenses in order to stay at particular
hotels. OFM should also mandate that travelers provide sufficient justifications on their
travel authorizations in accordance with the FTR and SEC Travel Policy and that they
include the applicable section of the FTR in their justifications. OFM should also
determine how the requirement to call three hotels can be enforced or OFM should
provide travelers and approving officials with alternative guidance on what they should
do to locate FTR-compliant lodging and provide directions on how their efforts should be
documented. OFM should also require approving officials to review and approve
requests for actual expenses for lodging prior to such requests being routed to OFM.
This will help ensure that travelers have exercised due diligence in their efforts to
identify appropriate lodging and place the responsibility on the approving officials to
ensure that justifications are appropriate prior to the travel authorization being routed to
OFM.

        Recommendation 10:

        The Office of Financial Management should remind travelers of the exceptions in
        the Federal Travel Regulation for claiming actual necessary expenses and
        require that travelers provide clear justifications in their travel authorizations
        when claiming actual necessary expenses, including the applicable Federal
        Travel Regulation exception.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 11:

        The Office of Financial Management should determine how the requirement in
        the SEC Travel Policy that travelers call three hotels prior to requesting actual
        necessary expenses can be enforced or provide travelers and approving officials
        with alternative guidance on what they should do to locate Federal Travel
        Regulation compliant lodging and how their efforts should be documented.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.




Audit of FedTraveler Travel Service                                 September 22, 2010
Report No. 483
                                         Page 26
        Recommendation 12:

        The Office of Financial Management should require approving officials to review
        and approve requests for actual expenses for lodging prior to such requests
        being routed to the Office of Financial Management. This will help ensure that
        travelers have exercised due diligence in their efforts to identify appropriate
        lodging and place responsibility on the approving officials to ensure that
        justifications are appropriate.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

Finding 5: Increased Controls are Needed in
FedTraveler for POV Travel
        FedTraveler does not require travelers to provide a written
        justification, or to obtain approval from OFM when a non-common
        carrier is used as the primary mode of transportation.

FTR § 301-10.4 requires travelers to travel by the method most advantageous to the
government, when cost and other factors are considered. Under 5 U.S.C. § 5733, travel
must be by the most expeditious means of transportation practicable and
commensurate with the nature and purpose of the traveler’s duties. FTR § 301-10.5
states that travel by common carrier is presumed to be the most advantageous method
of transportation and must be used when reasonably available. FTR § 301-10.6 further
states that if a traveler does not travel by the method of transportation required by
regulation or selected by the traveler’s agency, the additional expense is borne by the
traveler.

Based on a complaint OIG received, we found one traveler who received approval from
his approving official to travel round-trip (approximately 1,280 miles) from Atlanta to
Washington, D.C., using his privately owned vehicle (POV) as his primary mode of
transportation. As a result, the traveler claimed $824 for mileage, while the cost for
using a common carrier (i.e., contract flight) could have been as low as $198, which
would have saved the Commission over $626.

Based on a review of the audit controls in FedTraveler, we found that a traveler that
elects to use a POV as the primary mode of transportation is required to select “POV”
as the travel mode on the travel authorization drop down menu. The traveler must then
select an automobile type (i.e., advantageous to the government, government car not
convenient, government car refused, passenger, motorcycle, or private plane) from
another drop down menu as illustrated in Figure 1. However, when a traveler selects

Audit of FedTraveler Travel Service                               September 22, 2010
Report No. 483
                                         Page 27
“advantageous to the government,” FedTraveler does not prompt the traveler to enter a
written justification demonstrating how POV travel is most advantageous to the
government, over the common carrier transportation. Additionally, based on our review
of the travel authorization for the aforementioned POV trip from Atlanta to Washington,
D.C., the information pertaining to automobile type (e.g., most advantageous to the
government) is not visible to the approving official. Therefore, approving officials are not
provided sufficient information to ensure compliance with the FTR. Further, travel
authorizations for travelers that use POVs as their primary mode of transportation are
not routed through OFM, regardless of the dollar costs. We found that the Commission
spent approximately $678,000 for POV mileage in Fiscal Year 2009.

        Figure 1: FedTraveler Travel Authorization Window




        Source: FedTraveler.com

OFM should work with FedTraveler to implement additional system controls to ensure
that travelers provide adequate justifications for POV travel in accordance with the FTR
and ensure this information is viewable within FedTraveler to approving officials. In
addition, OFM should consider requiring its office review all travel authorizations where
POV travel is in exceeds a certain dollar value or mileage threshold.

        Recommendation 13:

        The Office of Financial Management (OFM), in consultation with the Office of
        Administrative Services, as applicable, should work with FedTraveler to
        implement additional system controls to ensure that travel by privately owned

Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 28
        vehicles is in accordance with the Federal Travel Regulation, including routing
        such travel through OFM.

        Management Comments. OAS and OFM concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS and OFM concurred with this
        recommendation.

Finding 6: Expense Report Processing Can Be
Improved
        While the majority of travelers are satisfied with the processing of
        expense reports in FedTraveler, a noteworthy number of travelers
        are not receiving reimbursement within 30 calendar days after their
        expense reports have been properly submitted and approved. As
        a result, travelers are sometimes paying for travel expenses out of
        their own pocket.

FTR § 301-52.7 states that travelers must submit their travel claims within 5 working
days after they complete their trip or period of travel, or every 30 days if a traveler is in a
continuous travel status. FTR § 301-52.17 states that an agency must reimburse a
traveler within 30 calendar days after the traveler submits a proper travel claim to the
agency’s designated approving office. The agency must also ensure that it uses a
satisfactory recordkeeping system to track submission of travel claims. FTR § 301-
52.18 states that an agency must notify a traveler as soon as practicable after the
submission of a travel claim of any error that would prevent it from making the payment
within 30 calendar days after receiving the submission and also provide the reason why
the travel claim is not proper.

Results from the OIG FedTraveler survey show that 89 percent of respondents (721
employees) believe they are receiving reimbursements for travel expenses within 30
calendar days after their expense reports have been properly submitted and approved.
However, a noteworthy number of respondents 10.8 percent (87 employees) stated they
are not receiving reimbursements within the required 30 day time period, causing some
people to have to pay for travel expenses out of their own pocket.

Based on available data from OFM and review of travelers’ comments to the OIG
survey, we found that the primary reasons for reimbursement delays include:

      (1) Travelers not submitting expense reports in a timely manner;
      (2) Approvers not approving their employees’ expense reports in a timely manner;
          and

Audit of FedTraveler Travel Service                                    September 22, 2010
Report No. 483
                                           Page 29
      (3) Holding and/or rejection of expense reports by OFM because they are
          incomplete (e.g., missing receipts) or do not match the travel authorizations
          (e.g., an expense report prepared by a traveler does not match the dates of
          authorized travel on the travel authorization).

We also found that the receipt imaging function within FedTraveler does not always
operate properly and OFM many times cannot view travelers’ faxed receipts.
Consequently, there are delays in processing expense reports, potentially causing
travelers to pay for travel out of their own pocket. Also, OFM spends a considerable
amount of resources researching and working with travelers to correct problems with
incomplete or mismatched expense reports, including frequently having to ask travelers
to amend their expense reports and original travel authorizations.

In addition, we found that although the SEC is required by the FTR to have a
satisfactory recordkeeping system to track expense report processing, OFM primarily
relies upon manual processes due to FedTraveler’s reporting limitations. For example,
OFM is not able to run a report from FedTraveler that shows when travel claims were
received by OFM for approval and the number of days they have been outstanding (i.e.,
an aging report) in order to give priority to those claims that were received first in time or
have been outstanding for a long period of time. OFM only receives an e-mail notifying
it that a document is awaiting OFM’s approval. Additionally, OFM staff can only view
through their FedTraveler desktop a list of expense reports awaiting approval and the
dates of travel, but cannot readily see the date the expense report was received by
OFM. They also cannot sort the expense reports according to the data received. As a
result, they have implemented manual procedures to track the processing of expense
reports.

OFM also does not have the capability within FedTraveler to run a report showing when
travelers have not submitted expense reports within the 5 or 30 day time period required
by the FTR, or when travelers have completed their expense reports but there are
delays in approval by their supervisors. As a result, OFM is not able to identify delays
with submission of expense reports and has to rely on data from the accounting system,
Momentum, to conduct a quarterly reconciliation of open travel obligations to ensure
travelers submit their expense reports and funds are de-obligated in the SEC’s
accounting system in a timely manner. An OFM official stated that FedTraveler had
been notified of the issue, but OFM still does not have the reporting capability it needs.

Based on a walkthrough and analysis of current available data from OFM, we
determined that its current backlog for processing expense reports was about four
calendar days. As of July 13, 2010, OFM was conducting initial reviews of expense
reports it had received by July 9, 2010.

To help ensure that travelers receive timely reimbursement for travel expenses and help
mitigate issues with expense reporting processing, OFM should request that
FedTraveler provide the necessary reporting capabilities to enhance expense report

Audit of FedTraveler Travel Service                                   September 22, 2010
Report No. 483
                                          Page 30
processing. OFM should also provide Commission staff with information on best
practices to avoid common mistakes that result in rejected expense reports. Further,
OFM should determine the feasibility and cost effectiveness of implementing a split
disbursement method for payment of travel expenses. Split disbursement is a function
in which a payment is made to a traveler’s government travel card on behalf of the
traveler and any remaining balance is reimbursed to the traveler.

        Recommendation 14:

        The Office of Financial Management, in consultation with the Office of
        Administrative Services, as applicable, should request that FedTraveler institute
        a system control that notifies travelers when their expense reports have not been
        submitted within the time period permitted by the Federal Travel Regulation and
        SEC Travel Policy.

        Management Comments. OAS and OFM concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS and OFM concurred with this
        recommendation.

        Recommendation 15:

        The Office of Financial Management (OFM), in consultation with the Office of
        Information Technology and Office of Administrative Services, as applicable,
        should request that FedTraveler provide the needed reporting capability to
        enable OFM to effectively monitor the receipt and processing of expense reports
        in accordance with the Federal Travel Regulation.

        Management Comments. OAS concurred and OFM concurred with the
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS and OFM concurred with this
        recommendation.

        Recommendation 16:

        The Office of Financial Management should publish on its travel website best
        practices with regard to preparation of expense reports so travelers can avoid the
        most common mistakes that result in returned expense reports in FedTraveler.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                         Page 31
        Recommendation 17:

        The Office of Financial Management should determine the feasibility and cost
        effectiveness of implementing a split disbursement method for payment of travel
        expenses.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

Finding 7: Limited FedTraveler Reporting
Capabilities Affect OFM’s Ability to Manage Travel
        While one of the primary reasons the SEC chose FedTraveler as its
        ETS was for its ad-hoc reporting capabilities, FedTraveler is not
        providing OFM the reporting capabilities that it needs to
        successfully perform its travel responsibilities.

HP Enterprise Services, LLC’s March 7, 2005 proposal provided in response to the
SEC’s request for quotations for ETS services stated, “Through the use of
FedTraveler.com’s Reporting Module, authorized SEC users will be able to access and
retrieve data resident in FedTraveler.com’s Oracle database as well as generate
standard and ad hoc reports to answer virtually any travel or financial query.”

In March 2005, OFM put together a technical panel to evaluate bids submitted by the
three available ETS vendors and cited EDS’ promised reporting capability as a key
factor in its rationale for choosing EDS as its ETS provider. OFM stated that “reporting
is an important SEC requirement and the current travel system does not adequately
meet SEC’s needs. EDS demonstrated the ability to provide information that SEC
currently lacks in its travel reporting.” OFM also stated that SEC travel will benefit from
the extensive ad-hoc reporting, which is critical for managing travel budgets.

Based on discussions with OFM and our own experience in trying to obtain travel data
to perform this review, we have concluded that FedTraveler does not provide the ad-hoc
reporting capability it promised. FedTraveler provides standard reports (based on data
from its travel authorization and vouchering system and online booking engine) and
allows a user to manipulate the data by selecting certain data fields and performing
limited sorting and filtering of the data. However, the reporting module does not allow
for true ad-hoc reporting outside of minor customization of the standard available
reports (e.g., completed expense reports by approval date, approved travel plans by
approval date, etc.). Additionally, many times the standard reports are not accessible
(i.e., they time out or the system crashes). In response to a May 2010 survey from GSA
asking the SEC to provide feedback on key performance indicators for FedTraveler,

Audit of FedTraveler Travel Service                                  September 22, 2010
Report No. 483
                                          Page 32
OFM rated FedTraveler’s management reporting capability as a 1 (lowest) out of 10
(highest). 9 The SEC also remarked that the reporting capabilities are extremely poor,
not user friendly, and not accurate.

Based on discussions with a FedTraveler representative, FedTraveler’s position is that
other than the standard reports currently available, requests for ad-hoc reports for the
SEC would be handled on a case-by-case basis and, if they are labor intensive,
FedTraveler has the option to assess a bill. The FedTraveler representative also
acknowledged that going forward FedTraveler is working to enhance its reporting
capabilities.

In addition to the reporting capabilities needed to ensure OFM is complying with the
FTR with regard to expense report processing, OFM has identified the following ad-hoc
reports that it needs the capability to run periodically to successfully perform its travel
responsibilities.

      •   Premium Travel Report - A report to show first and business class air
          travel by traveler, date, etc.
      •   User ID Report - A report to show the user IDs assigned by FedTraveler to
          SEC users (e.g., secsmithj).
      •   User Activation Report - A report to show who has and has not activated
          their FedTraveler accounts.
      •   User Data Report - A report to show if travelers have completed their
          profiles in FedTraveler (e.g., filled in their date of birth to facilitate
          purchasing of airline tickets).
      •   Travel Report by Traveler - A report that allows OFM to compile a list of
          trips by date for a specific traveler.
      •   Travel Report by Location - A report that allows OFM to compile a list of
          travelers who have traveled to a specific location.
      •   Reject Report - A report that shows all documents that have been rejected
          in the FedTraveler system and why.

OFM should request that FedTraveler provide the capability to produce the
aforementioned reports on a periodic basis and determine the associated costs, if any.

          Recommendation 18:

          The Office of Financial Management (OFM), in consultation with the Office of
          Information Technology and Office of Administrative Services, should identify and
          request from FedTraveler ad-hoc reporting capabilities that are needed to
          successfully perform OFM’s travel responsibilities and analyze the cost
          effectiveness of implementing such changes.


9
    “HP/FedTraveler Performance Assessment”, dated May 2010, obtained from the General Services Administration.
Audit of FedTraveler Travel Service                                                  September 22, 2010
Report No. 483
                                                    Page 33
        Management Actions. OAS and OFM concurred with the recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS and OFM concurred with this
        recommendation.

Finding 8: OFM Should Examine Ways to Reduce
FedTraveler On-Site Customer Support Costs
        One of the largest expenditures in implementing and maintaining
        the FedTraveler travel system is for customer support. As a result,
        OFM should closely examine this area to identify potential cost
        savings going forward.

Based on a review of the SEC’s task order with HP Enterprise Services, LLC dated
March 31, 2005, and related contract modifications as of April 6, 2010, the total
FedTraveler contract is valued at approximately $3.2 million (excluding transaction
fees). Of this amount, approximately $127,000 is for implementation services and the
remaining $3.073 million is primarily for customer support (CAS representatives),
training and travel. The SEC currently maintains five CAS representatives on-site to
provide FedTraveler assistance at a current rate per CAS representative of $97.01 per
hour, a total potential annual cost to the SEC of over $1 million. This amount excludes
costs (transaction fees) associated with assistance provided by CI Travel, which are
billed to the travelers directly or to the SEC’s centrally billed account. Based on
discussions with OFM, the SEC had originally contracted for two CAS representatives,
but due to the number of issues that travelers were having with FedTraveler, the SEC
increased funding for customer service support. Additionally, an OFM representative
stated that one of the CAS representatives now assists OFM with reconciliation of the
SEC’s centrally billed account.

We found that although OFM receives a monthly call log to show how many calls are
received and the type of assistance CAS representatives are providing to travelers,
OFM has not established any agency-specific performance metrics or standards to
monitor CAS representative performance and/or determine if the SEC has an adequate
number of CAS representative. Additionally, it may be inappropriate to allocate
Commission funds to have a CAS representative performing reconciliation of the SEC’s
centrally billed account since GSA’s ETS solicitation stated that “the ETS should provide
for matching of centrally issued passenger tickets with the appropriate travel
authorizations and/or vouchers.” Consequently, the SEC may be charged twice for
these services. On a positive note, the OIG’s survey found that travelers are generally
satisfied with the customer service provided by the CAS representatives.

OFM should examine the nature and level of the activities of the current CAS
representatives (i.e., average number of calls per CAS representative, etc.) to

Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                        Page 34
determine if the number of CAS representatives could be reduced, while still
maintaining an acceptable level of customer service. OFM should also establish some
agency-specific performance measures or other means by which it can monitor the
timeliness and quality of the service provided by the CAS representatives.

        Recommendation 19:

        The Office of Financial Management should examine the activity level of the
        current customer service representative to determine if the current number of
        representatives is appropriate.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.

        Recommendation 20:

        The Office of Financial Management should establish agency-specific
        performance measures or other means to monitor the service provided by the
        customer service representatives.

        Management Comments. OFM concurred with the recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OFM concurred with this recommendation.




Audit of FedTraveler Travel Service                                September 22, 2010
Report No. 483
                                         Page 35
                                                                                      Appendix I


                                              Acronyms
BOC                                   Budget Object Class
_CA                                   Capacity Controlled Fare
CAS                                   FedTraveler Customer Service Representative
CO                                    Contracting Officer
COTR                                  Contracting Officer Technical Representative
E-Gov                                 E-Government
EDS                                   Electronic Data Systems
ETS                                   Electronic Travel Service
FEMA                                  Federal Emergency Management Agency
FTR                                   Federal Travel Regulation
GSA                                   General Services Administration
IDIQ                                  Indefinite Delivery Indefinite Quantity
OAS                                   Office of Administrative Services
OFM                                   Office of Financial Management
OGC                                   Office of General Counsel
OIG                                   Office of Inspector General
POV                                   Privately Owned Vehicle
SEC or Commission                     U.S. Securities and Exchange Commission
YCA                                   Highly Discounted Unrestricted Fare




Audit of FedTraveler Travel Service                                       September 22, 2010
Report No. 483
                                                  Page 36
                                                                            Appendix II


                            Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We determined that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

Scope. We examined FedTraveler activities since the SEC’s implementation of the
system in June 2008, including assessing the level of concern that travelers have with
the system, assessing whether administrative fees being charged by FedTraveler are
appropriate, determining whether FedTraveler has effective controls over hotel
accommodations and identifying areas where the SEC can reduce travel costs. We
conducted our fieldwork from May 2010 to August 2010.

Methodology. In order to accomplish our audit objectives, we gained familiarity with
applicable travel requirements in the Commission’s policies and procedures and the
Federal Travel Regulation (FTR). We sent a survey to SEC staff who had traveled
during the first part of Fiscal Year 2010 and alternate preparers to obtain feedback on
their experiences with the system and to identify significant areas of concern. In
addition, we conducted follow-up interviews and solicited input from Commission staff
who asked to be contacted in response to the OIG’s survey. We also gathered data
from FedTraveler pertaining to recent travel to examine whether appropriate transaction
fees are being charged to travelers and to determine whether justifications for actual
necessary expenses for lodging were in accordance with applicable requirements. In
addition, we examined documentation from the Office of Acquisitions pertaining to the
procurement of FedTraveler. We also conducted interviews and obtained travel related
documentation from the Office of Financial Management, HP Enterprise Services, LLC,
and GSA in order to facilitate completion of our review.

Internal or Management Controls. We reviewed management controls as they
pertained to the audit objectives, such as gaining an understanding of the Commission’s
travel policies and procedures, as well as obtaining an understanding of applicable
system controls in FedTraveler with regard to hotel accommodations and travel by other
than common carrier to help ensure travelers are complying with the FTR and SEC
requirements.

Prior Audit Coverage. The OIG reviewed the Commission’s process for processing
premium travel in a prior audit, No. 447, Audit of Premium Travel, (September 29,
2008), and made several recommendations to enhance controls over travel upgrades.

Audit of FedTraveler Travel System                              September 22, 2010
Report No. 483
                                     Page 37
                                                                           Appendix III


                                      Criteria
Federal Travel Regulation, 41 C.F.R. § 301-1.1, etc. The FTR implements statutory
requirements and Executive branch policies for travel by federal civilian employees and
others authorized to travel at government expense.

Travel Policy for SEC Employees, January 6, 2010. The SEC internal travel policies
and procedures that provide further clarification of requirements in the FTR.




Audit of FedTraveler Travel System                              September 22, 2010
Report No. 483
                                     Page 38
                                                                              Appendix IV


                          List of Recommendations

Recommendation 1:

The Office of Financial Management should establish a working group to independently
analyze the survey results, comments, and suggestions made in response to the Office
of Inspector General survey and make recommended improvements to the Associate
Executive Director for Financial Management to help mitigate deficiencies with the
system and ease the frustration of Commission employees.

Recommendation 2:

The Office of Financial Management should develop regular means of communication
(i.e., website updates, newsletters or similar media) with Commission staff regarding
common FedTraveler issues and solutions regarding booking airline and hotel
accommodations, transaction fees, electronic preparation of travel authorizations and
expense reports, etc. as well as any changes to existing travel policy.

Recommendation 3:

The Office of Financial Management should consult with FedTraveler and CI Travel to
publish a guide for employees that clearly explains the transaction fee structure,
including the amount, timing and frequency of fee charges.

Recommendation 4:

The Office of Financial Management should educate Commission staff on alternatives
to contacting CI Travel to minimize non-self service transaction fees that result in high
transaction costs for the Commission.

Recommendation 5:

The Office of Financial Management should work with FedTraveler to require that
travelers are notified when non-self service transaction fees are charged by CI Travel,
including providing a justification for the charge and information regarding the travel
itinerary to which the charge relates. Alternatively, the Office of Financial Management
should consider centrally billing all transaction fees to remove the burden of
reconciliation from Commission staff.




Audit of FedTraveler Travel System                                September 22, 2010
Report No. 483
                                     Page 39
                                                                               Appendix IV


Recommendation 6:

The Office of Financial Management should determine the feasibility and cost
effectiveness of implementing a financial system change to capture transaction fee
costs in a distinct Budget Object Class (BOC) code, which will provide greater
transparency for travelers on expense reports and potentially provide useful cost
information for budget planning purposes.

Recommendation 7:

The Office of Administrative Services should request a legal opinion from the Office of
General Counsel regarding the amount and frequency of fees charged by FedTraveler
to ensure that the charges are appropriate and in accordance with the General Service
Administration’s Master Contract and the Commission’s task order.

Recommendation 8:

The Office of Administrative Services (OAS) should request access from the General
Services Administration (GSA) to the master contract via GSA’s digital contract library
and also provide access to the Contract Officer Technical Representative to assist in
contract monitoring. OAS should also take appropriate measures to ensure that it is
being properly notified by GSA of all changes to the master contract.

Recommendation 9:

The Office of Financial Management should issue guidance to travelers
regarding available exceptions to using the contract fare and tips on reliable
outside sources for confirming that no contract flights exist prior to requesting a
non-contract flight.

Recommendation 10:

The Office of Financial Management should remind travelers of the exceptions in the
Federal Travel Regulation for claiming actual necessary expenses and require that
travelers provide clear justifications in their travel authorizations when claiming actual
necessary expenses, including the applicable Federal Travel Regulation exception.




Audit of FedTraveler Travel System                                  September 22, 2010
Report No. 483
                                      Page 40
                                                                             Appendix IV


Recommendation 11:

The Office of Financial Management should determine how the requirement in the SEC
Travel Policy that travelers call three hotels prior to requesting actual necessary
expenses can be enforced or provide travelers and approving officials with alternative
guidance on what they should do to locate Federal Travel Regulation compliant lodging
and how their efforts should be documented.

Recommendation 12:

The Office of Financial Management should require approving officials to review and
approve requests for actual expenses for lodging prior to such requests being routed to
the Office of Financial Management. This will help ensure that travelers have exercised
due diligence in their efforts to identify appropriate lodging and place responsibility on
the approving officials to ensure that justifications are appropriate.

Recommendation 13:

The Office of Financial Management (OFM), in consultation with the Office of
Administrative Services, as applicable, should work with FedTraveler to implement
additional system controls to ensure that travel by privately owned vehicles is in
accordance with the Federal Travel Regulation, including routing such travel through
OFM.

Recommendation 14:

The Office of Financial Management, in consultation with the Office of Administrative
Services, as applicable, should request that FedTraveler institute a system control that
notifies travelers when their expense reports have not been submitted within the time
period permitted by the Federal Travel Regulation and SEC Travel Policy.

Recommendation 15:

The Office of Financial Management (OFM), in consultation with the Office of
Information Technology and Office of Administrative Services, as applicable, should
request that FedTraveler provide the needed reporting capability to enable OFM to
effectively monitor the receipt and processing of expense reports in accordance with the
Federal Travel Regulation.




Audit of FedTraveler Travel System                                September 22, 2010
Report No. 483
                                     Page 41
                                                                           Appendix IV


Recommendation 16:

The Office of Financial Management should publish on its travel website best practices
with regard to preparation of expense reports so travelers can avoid the most common
mistakes that result in returned expense reports in FedTraveler.

Recommendation 17:

The Office of Financial Management should determine the feasibility and cost
effectiveness of implementing a split disbursement method for payment of travel
expenses.

Recommendation 18:

The Office of Financial Management (OFM), in consultation with the Office of
Information Technology and Office of Administrative Services, should identify and
request from FedTraveler ad-hoc reporting capabilities that are needed to successfully
perform OFM’s travel responsibilities and analyze the cost effectiveness of
implementing such changes.

Recommendation 19:

The Office of Financial Management should examine the activity level of the current
customer service representative to determine if the current number of representatives is
appropriate.

Recommendation 20:

The Office of Financial Management should establish agency-specific performance
measures or other means to monitor the service provided by the customer service
representatives.




Audit of FedTraveler Travel System                              September 22, 2010
Report No. 483
                                     Page 42
                                                                                                            Appendix V


                                  Management Comments




                                            MEMORANDUM

                                              September 21, 2010


           TO:            Jacqueline M. Wilson
                          Assistant Inspector General for Audits

           FROM:          KennethJohnson       ~
                          Chief Financial Offi               .
                          Office of Financial Manage ent

            SUBJECT:      OFM Response to Report No. 483, Audit ofFedTraveler .Travel Service

            This memorandum provides the Office of Financial Management's (OFM) response to
            OIG Report No. 483, Audit ofFedTraveler Travel Service, dated September 1, 2010.
            OFM concurs with all recommendations. Recommendations #7 and 8 are made to the
            Office of Administrative Services (OAS) and will be responded to in a separate
            memorandum from that office.

            OFM will take immediate action to develop a corrective action plan to address all
            recommendations.

            Below are OFM's comments for each report recommendation. If you have any questions
            regarding our response, please contact Kay Levy of my staff at (202) 551-8732.




Audit of FedTraveler Travel System                                                              September 22, 2010
Report No. 483
                                                     Page 43
                                                                                                                 Appendix V




                              OFM Response to Report No. 483 Recommendations

              Recommendation 1:

              The Office of Financial Management should establish a working group to
              independently analyze the survey results. comments, and suggestions made in
              response to the OIG survey and make recommended improvements to the Associate
              Executive Director for Financial Management to help mitigate deficiencies with the
              system and ease the frustration of Commission employees.

              OFM Response: OFM concurs with this recommendation. OFM will establish a
              working group to conduct further analysis on the OIG survey. The work group will make
              recommendations to the Chief Financial Officer to improve customer satisfaction and
              potentially bridge system deficiencies in the FedTraveler system.


              Recommendation 2:

              The Office of Financial Management shonld develop regular means of
              communication (i.e. website updates, newsletters or similar media) with Commission
              staff regarding common FedTraveler issues and solntions regarding booking airline
              and hotel accommodations. transaction fees, electronic preparation of travel
              authorizations and expense reports, etc. as well as any changes to existing travel
              policy.

              Recommendation 3:

              The Office of Financial Management should consult with FedTraveler and CI
              Travel to publish a guide for employees that clearly explains the transaction fee
              structure, including the amount, timing and frequency of fee charges.

              Recommendation 9:

              The Office of Financial Management should issue gnidance to travelers regarding
              available exceptions to using the contract fare and tips on reliable outside sources
              for confirming that no contract flights exist prior to requesting a non-contract
              flight.

              Recommendation 10:

              The Office of Financial Management should remind travelers of the exceptions in
              the Federal Travel Regnlation for claiming actual necessary expenses and require
              that travelers provide clear justifications in their travel authorizations when
              claiming actual necessary expenses. including the applicable Federal Travel
              Regulation exception.




Audit of FedTraveler Travel System                                                                   September 22, 2010
Report No. 483
                                                     Page 44
                                                                                                                         Appendix V




             Recommendation 16:

             The Office of Financial Management should publish on its travel website best
             practices with regard to preparation of expense reports so travelers can avoid the
             most common mistakes that result in returned expense reports in FedTraveler.

             OFM Response: OFM concurs with these recommendations. OFM conducts regular
             training for Commission employees. In addition to this training, OFM will send out
             regular Administrative Notices including "hot topics" on travel, policy changes, general
             travel information and other FedTraveler related issues. OFM will continually update the
             Travel page on the Insider, as well, to have a central repository of SEC travel policy, fee
             structure and other pertinent travel information.


             Recommendation 4:

             The Office of Financial Management should educate Commission staff on
             alternatives to contacting CI Travel to minimize non-self service transaction fees
             that result in high transaction costs for the SEC.

             OFM Response: OFM concurs with this recommendation. Travel is mission critical for
             SEC employees. In carrying out the work ofthe Commission, staff sometimes must
             change travel times, destinations, and details without prior notice. It is often necessary to
             use the CI Travel phone line to make changes to reservations. OFM will educate
             Commission staff on alternative methods to book travel reservations, although certainly
             staff still will need to use the CI Travel phone line to make mission critical changes or
             book foreign travel.


             Recommendation 5:

             The Office of Financial Management should work with FedTraveler to require that
             traveiers are notified when non-self service transaction fees are charged by CI
             Travel, including providing a justification for the charge and information regarding
             the travel itinerary to which the charge relates. Alternatively, the Office of Financial
             Management should consider centrally billing all transaction fees to remove the
             burden of reconciliation from Commission staff.

             OFM Response: OFM concurs with this recommendation. Educating the Commission
             staff on transaction fees, the circumstances under which they are charged, and the actions
             that constitute a charge should be paramount in reconciling non-self service fees. In
             addition, OFM will inquire with FedTraveler about adding this detailed information to
             the non-self service transaction fees on credit card charges. However, based on previous
             communications with FedTraveler, OFM does not believe the functionality exists at this
             time, as we understand the travel charge card vendor does not have the capability to
             include a transaction justification or itinerary details with each transaction fee.




Audit of FedTraveler Travel System                                                                           September 22, 2010
Report No. 483
                                                        Page 45
                                                                                                                          Appendix V




             With respect to centrally billing transaction fees, FedTraveler does not have the
             capability to charge travel costs to one credit card and transaction fees to an alternate
             credit card. In addition, OFM does not have the labor resources to reconcile the centrally
             billed account (for the travel charge card) should all non-self service fees be charged to it.


             Recommendation 6:

             The Office of Financial Management should determine the feasibility and cost
             effectiveness of implementing a financial system change to capnire transaction fee
             costs in a distinct Object Class (BOC) Code which will provide greater transparency
             for travelers'on expense reports and potentially provide useful cost information for
             budget planning purposes.

             OFM Response: OFM concurs with this recommendation. OFM will work with the
             Momentum financial system support team to define potential additional BOCs to capture
             the transaction fee costs. OFM will also work with FedTraveler to determine what
             functionality changes are needed in the FedTraveler system, as well as its interface with
             the fmancial system, to accommodate these additional BOCs. Once OFM has captured
             the potential cost of these changes, OFM will make a determination on the feasibility of
             including these BOCs to capture transaction fees.


             Recommendation 10:

             The Office of Financial Management should remind travelers of the exceptions in
             the Federal Travel Regulation for claiming actual necessary expenses and require
             that travelers provide clear justifications in their travel authorizations when
             claiming actual necessary expenses, including the applicable Federal Travel
             Regulation exception.

             OFM Response: OFM concurs with this recommendation. OFM conducts regular
             training for Commission employees. In addition to this training, OFM will send out
             regular Administrative Notices including "hot topics" on travel, policy changes, general
             travel information and other FedTraveler related issues. OFM will continually update the
             Travel page on the Insider, as well, to have a central repository of SEC travel policy, fee
             structure and other pertinent travel information.


              Recommendation 11:

              The Office of Financial Management should determine how the requirement in the
              SEC Travel Policy requiring travelers to call three hotels prior to requesting actual
              necessary expenses can be enforced or provide travelers and approving officials




Audit of FedTraveler Travel System                                                                            September 22, 2010
Report No. 483
                                                        Page 46
                                                                                                                        Appendix V




             with alternative guidance on what they should do to locate Federal Travel
             Regulation compliant lodging and how their efforts should be documented.

              OFM Response: OFM concurs with this recommendation. OFM agrees that this
             .requirement is not enforceable. OFM will remove this requirement from the travel policy.
              Furthermore, OFM will include education on requesting actual necessary expenses for
              travelers and search resources outside ofFedTraveJer in all training materials, as well as
              the central repository on the Insider. Travelers will be required to exercise due diligence
              in looking for a hotel room at the government rate but will not be required to prove they
              called three alternative hotels. Within the FedTraveler system there is a "Justification"
              response area where they will be required to attest that they have exercised due diligence
              in looking for a hotel at the government rate.


             Recommendation 12:

             The Office of Financial Management should require approving officials to review
             and approve requests for actual expenses for lodging prior to such requests being
             routed to the Office of Financial Management. This will help ensure that travelers
             have exercised due diligence in their efforts to identify appropriate lodging and
             place responsibility on the approving official to ensure that justifications are
             appropriate.

             OFM Response: OFM concurs with this recommendation, and has already completed
             remedial actions. The dynamic routing function within the FedTraveler system was
             changed to route all requests for actual expenses for lodging to the intra-office approving
             officials before routing to OFM.


              Recommendation 13:

              The Office of Financial Managem·ent, in consultation with the Office of
              Administrative Services, as applicable, should work with FedTraveler to implement
              additional system controls to ensure that travel by privately owned vehicles is in
              accordance with the Federal Travel Regulation, including routing such travel
              through the Office of Financial Management.

              Recommendation 14:

             The Office of Financial Management, in consultation with the Office of
             Administrative Services, as applicable, should request that FedTraveler institute a
             system control that notifies travelers when their expense reports have not been
             submitted within the time period permitted by the Federal Travel Regulation and
             SEC Travel Policy.




Audit of FedTraveler Travel System                                                                          September 22, 2010
Report No. 483
                                                        Page 47
                                                                                                                   Appendix V




              Recommendation 15:

              The Office of Financial Management, in consultation with the Office o!Information
              Technology and Office of Administrative Services, as applicable, should request that
              FedTraveler provide the needed reporting capability to enable them to effectively
              monitor the receipt and processing !If expense reports in accordance with the
              Federal Travel Regulation.

              Recommendation 18:

              The Office of Financial Management, in consultation with the Office of Information
              Technology and Office of Administrative Services, should identify and request from
              FedTraveler ad-hoc reporting capabilities that are needed to successfully perform
              their travel responsibilities and analyze the cost effectiveness of implementing such
              changes.

              OFM Response: OFM concurs with these recommendations, and will request these
              system changes. However, OFM cannot guarantee that GSA will put in place additional
              system controls if it determines the current configuration is fully compliant with GSA
              regulations. Any potential configuration change for FedTraveler must go through GSA
              approved configuration management procedures. In order to make a change to the
              configuration ofthe FedTraveler syStem, the requesting agency must submit a CR
              (change request) for the additional functionality that they desire. This CR is reviewed by
              the Configuration Control Board (made up of representatives from GSA, FedTraveler,
              and other user agencies). A determination is made about the necessity of the CR and
              whether other user agencies are willing to share in the cost burden. Should only the
              requesting agency desire the functionality and it is not required for regulatory
              compliance, the entire cost will be borne by that agency. OFM will make the CRs for the
              recommended functionality changes, but given funding concerns, cannot state with
              certainty that the new functionality would be cost-beneficial to the Commission in light
              ofthe new Electronic Travel System that is scheduled to come online in FY2012.


              Recommendation 17:

              The Office of Financial Management should determine the feasibility and cost
              effectiveness of implementing a split disbursement method for payment oftravel
              expenses.

              OFM Response: OFM concurs with this recommendation. OFM will work with the
              Momentum financial system team and FedTraveler to determine the practicability and
              cost effectiveness of implementing split disbursement.




Audit of FedTraveler Travel System                                                                     September 22, 2010
Report No. 483
                                                       Page 48
                                                                                                                  Appendix V




             Recommendation 19:

             The Office of Financia) Management should examine the activity level oUhe current
             customer service representative to determine if the current number of
             representatives is appropriate.

             OFM Response: OFM concurs with this recommendation, and it is currently in practice.
             The COTR for the FedTraveler task order conducts an annual evaluation of the activity
             level of the CAS Reps (customer service representatives). OFM uses the evaluation in
             requesting the proper amount of funding for the customer service CLIN from the
             Information Officers Council (lOC).


             Recommendation 20:

             The Office of Financial Management should establish agency-specific performance
             measures or other meaDS to monitor the service provided by the customer service
             representatives.

             OFM Response: OFM concurs with this recommendation. The COTR for the
             FedTraveler contract will work with OIT and OAS on procurement of call monitoring
             software that will provide information on a multitude ofcustomer service support
             metrics. From these metries, performance goals can be set and continually monitored by
             OFM.




Audit of FedTraveler Travel System                                                                    September 22, 2010
Report No. 483
                                                     Page 49
                                                                                                            Appendix V




                                               MEMORANDUM

                                               September 16, 2010


             TO:           H. David Kotz
                           Inspector General

             FROM:         Sharon Sheehan       .il ~ ._~ .,tlul.
                           Associate Executive'1!':C;;:--
                           Office ofAdministrative Services

             SUBJECT:      OAS Management Response to Draft Report No. 483, Audit ofthe
                           FedTraveler Travel Service

             This memorandum is in response to the Office of Inspector General's Draft Report No.
             483, Audit ofthe FedTraveler Travel Service. Thank you fur the opportunity to review
             and 'respond to this report. We concur with the recommendations addressed to OAS and
             have begun taking appropriate steps to implement them.

             Recommendation 7:

             OAS concurs. The Office of Acquisitions (OA) will request the Office ofGeneral
             Counsel (OGe) provide a legal opinion regarding the ainount and frequency offees
             charged by FedTraveler and whether the charges   and
                                                                fees are appropriate and consistent
             with the applicable GSA master contract and SEC task order.

             Recommendation 8:

             OAS concurs. The contracting officer recently gained access to the GSA master contract
             and will monitor changes.

             Recommendations 13, 14, 15, and 18:

             OAS concurs. We view our role in implementing these recommendations as support to
             OFM only ifthe action requires a modification to the SEC's task order.




Audit of FedTraveler Travel System                                                              September 22, 2010
Report No. 483
                                                    Page 50
                                                                          Appendix VI




          OIG Response to Management’s Comments

OFM concurred with all 18 recommendations addressed to their office and indicated
that they would take action to implement all of the recommendations. In addition, OAS
agreed with the two recommendations addressed to its office.

We believe that OFM’s and OAS’ proposed actions are responsive to our findings and
recommendations and we are pleased that they have already taken actions to
implement some of the report’s recommendations. Once all of the recommendations
are fully implemented, we believe that the improvements will help ease some of the
frustration expressed by Commission staff regarding FedTraveler and result in
significant improvement to the operations of the FedTraveler system at the SEC.




Audit of FedTraveler Travel System                             September 22, 2010
Report No. 483
                                     Page 51
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
